<html>
<title> - THE REAUTHORIZATION OF THE CHESAPEAKE BAY PROGRAM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
           THE REAUTHORIZATION OF THE CHESAPEAKE BAY PROGRAM

=======================================================================

                                (109-69)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 4, 2006

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
28-284                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)

  


            Subcommittee on Water Resources and Environment

                JOHN J. DUNCAN, Jr., Tennessee, Chairman

SHERWOOD L. BOEHLERT, New York       EDDIE BERNICE JOHNSON, Texas
WAYNE T. GILCHREST, Maryland         JOHN T. SALAZAR, Colorado
VERNON J. EHLERS, Michigan           JERRY F. COSTELLO, Illinois
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               BRIAN BAIRD, Washington
RICHARD H. BAKER, Louisiana          TIMOTHY H. BISHOP, New York
ROBERT W. NEY, Ohio                  BRIAN HIGGINS, New York
GARY G. MILLER, California           ALLYSON Y. SCHWARTZ, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  EARL BLUMENAUER, Oregon
BILL SHUSTER, Pennsylvania           ELLEN O. TAUSCHER, California
JOHN BOOZMAN, Arkansas               BILL PASCRELL, Jr., New Jersey
JIM GERLACH, Pennsylvania            RUSS CARNAHAN, Missouri
TOM OSBORNE, Nebraska                NICK J. RAHALL, II, West Virginia
TED POE, Texas                       ELEANOR HOLMES NORTON, District of 
CONNIE MACK, Florida                 Columbia
LUIS G. FORTUNO, Puerto Rico         JOHN BARROW, Georgia
CHARLES W. BOUSTANY, Jr.,            JAMES L. OBERSTAR, Minnesota
Louisiana, Vice-Chair                  (Ex Officio)
JEAN SCHMIDT, Ohio
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Cardin, Hon. Benjamin L., a Representative in Congress from 
  Maryland.......................................................     6
 Davis, Hon. Jo Ann, a Representative in Congress from Virginia..     6
 Franks, Hon. C. Ron, Secretary, Maryland Department of Natural 
  Resources, Chesapeake Bay Executive Council....................    10
 Gross, Penelope A., Mason District Supervisor, Fairfax County 
  Board of Supervisors...........................................    10
 Grumbles, Benjamin H., Assistant Administrator for Water, U.S. 
  Environmental Protection Agency................................    10
 Hoagland, Roy A., Vice President for Environmental Protection 
  and Restoration, Chesapeake Bay Foundation.....................    10
 Swanson, Ann Pesiri, Executive Director, Chesapeake Bay 
  Commission.....................................................    10

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

 Cardin, Hon. Benjamin L., of Maryland...........................    38
Carnahan, Hon. Russ, of Missouri.................................    42
 Davis, Hon. Jo Ann, of Virginia.................................    43
Gilchrest, Hon. Wayne T., of Maryland............................    53

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Franks, Hon. C. Ron.............................................    45
 Gross, Penelope A...............................................    55
 Grumbles, Benjamin H............................................    63
 Hoagland, Roy A.................................................    75
 Swanson, Ann Pesiri.............................................    81

                        ADDITIONS TO THE RECORD

Bailes, Hon. Gerald L., Director, Miller Center for Public 
  Affairs, University of Virginia, statement.....................    85
Sheenan, Denise M., Commissioner, Department of Environmental 
  Conservation, State of New York, letter, June 8, 2006..........    89


            THE REAUTHORIZATION OF THE CHESAPEAKE BAY PROGRAM

                              ----------                              


                         Thuesday, May 4, 2006,

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Water Resources and Environment, Washington, 
            D.C.
    The committee met, pursuant to call, at 10:00 a.m. in Room 
2167, Rayburn House Office Building, the Honorable John J. 
Duncan, Jr. [chairman of the committee] presiding.
    Mr. Duncan. I want to go ahead and welcome everyone to our 
hearing today on the Chesapeake Bay Program Reauthorization and 
H.R. 4126 that we are doing at least in major part at the 
request of our good friend and members of the Subcommittee, 
Congressman Gilchrest, who is so interested and involved in all 
of this.
    The Chesapeake Bay is the largest estuary in the United 
States and is critical to the economy, environment and way of 
life for millions in the mid-Atlantic area. Covering 64,000 
square miles, the watershed spans parts of six States and the 
District of Columbia, and is home to 16 million people. There 
are 150 major streams and tributaries in the Chesapeake Bay 
basin. The Bay is an important environmental feature in the 
region. It is home to millions of waterfowl and a vast array of 
fish, shellfish and other aquatic plants and animals.
    For the human population, the Chesapeake Bay provides 
millions of pounds a seafood, a wide variety of recreational 
opportunities and is a major shipping and commercial hub. Two 
of the Nation's largest ports are on the Chesapeake Bay, the 
ports in Baltimore and the port at Hampton Roads.
    Beginning with colonial settlement and until today, land 
use changes in the watershed have affected the health of the 
Chesapeake Bay. Public concerns about the health of the Bay 
have been raised since the 1930s. The deterioration of the 
Chesapeake Bay can be seen in a decrease in water clarity, a 
decline in the oyster and crab populations and a lack of 
underwater grasses.
    There are 11 areas of the Bay that are classified as dead 
zones, where there is not enough oxygen in the water to sustain 
life. The EPA says the major causes of the Bay's deterioration 
are excessive nutrients and sediments coming from farm lands, 
wastewater treatment plants and urban runoff. Septic systems 
and air deposition of emissions from power plants, cars and 
trucks also contribute to the degradation.
    In the next 25 years, an additional 3.7 million people are 
expected to be living in the Chesapeake Bay watershed. As more 
concrete and asphalt replaces forests and open spaces, the 
runoff of nutrients and sediments into the Bay will quicken. 
However, it is this same development that provides the economic 
stability and future growth prospects for the region. We must 
balance our economic development with our need for clean water 
and a healthy environment.
    In 1983, Maryland, Pennsylvania, Virginia and the District 
of Columbia signed with the EPA the first Chesapeake Bay 
Agreement. In 1987, the Chesapeake Bay Program was authorized 
formally by Congress and the Clean Water Act. Today, the 
program is a partnership of States, local entities and the EPA 
that directs and conducts restoration of the Chesapeake Bay. 
The Chesapeake 2000 Agreement set ambitious restoration goals 
to be met by 2010.
    Over the last 10 years, $3.7 billion in direct funding has 
been provided to the program from the Federal Government and 
the States. Of this, $972 million has been provided by the 
Federal Government. An additional $1.9 billion in indirect 
funding has gone to programs that improve the health of the 
Bay.
    Also in the last 10 years, the EPA has provided $1 billion 
to Maryland, Virginia and Pennsylvania through the Clean Water 
State Revolving Loan Fund. The EPA reports that some progress 
has been made in cleaning up the Bay, but many challenges 
remain.
    A Government Accountability Office report last year 
suggested that the reported improvements in the Bay may be 
overstated. To address the need to reauthorize the Chesapeake 
Bay Program, our Subcommittee colleague, Wayne Gilchrest, has 
introduced H.R. 4126, the Chesapeake Bay Restoration 
Enhancement Act of 2005. The bill has 16 bipartisan co-
sponsors, including another Subcommittee colleague, Eleanor 
Holmes Norton.
    The bill would authorize the Chesapeake Bay Program through 
2011, with some modifications. H.R. 4126 would increase the 
accountability of the program to achieve water quality goals, 
and would increase the role of the local governments in Bay 
restoration. Also, the bill would increase authorized funding 
from $40 million to $50 million annually through 2011.
    This is an important bill and deserves our careful 
consideration. We have assembled expert witnesses to help us 
consider this important program, and Mr. Gilchrest's bill.
    We have two distinguished members of Congress from the 
Chesapeake Bay watershed, Jo Ann Davis of Virginia and Ben 
Cardin of Maryland. In addition, we have representatives of the 
State and Federal partners who administer the program. I look 
forward to hearing from all of you, and let me now turn to my 
good friend, the Ranking Member, Ms. Johnson, for any opening 
statement she wishes to make.
    Ms. Johnson. Thank you very much, Mr. Chairman, for holding 
this hearing on the Chesapeake Bay, one of our wonders of the 
world, and on the much-needed efforts to improve its 
environmental health.
    The Chesapeake Bay is an ecological treasure, lying in the 
back yard of our Nation's capital. Home to more than 16 million 
people and more than 3,600 species of plants and animal life, 
the Chesapeake Bay watershed has a long history of human 
settlement, starting with the first Native American communities 
roughly 12,000 years ago.
    Yet there is also a long history of declining health of the 
Chesapeake Bay in part because of the utilization of the Bay 
watershed's natural resources. For example, during the 19th 
century, a shift toward commercial agriculture led to more land 
devoted to crop production, more reclaimed wetlands as well as 
the importation and utilization of nitrogen fertilizers to 
enhance productivity. These factors, when combined with 
residential and industrial growth in the region, placed 
significant pressure on the delicate balance of the Bay's 
ecosystem.
    Soon afterwards, the warning signs of the Bay's declining 
health began. By the late 1800s, oysterman began to record 
declining harvests of oysters from the region. By the beginning 
of the 20th century, reports document declining migratory bird 
populations and fewer acres of native eel grass beds and other 
habitat.
    In 1968, a local survey reported that pollution in the 
Chesapeake Bay cost $3 million in annual losses to the Bay 
fishing industry. Mr. Chairman, the warning signs have been 
around for over a century. Yet we have only recently started 
paying attention.
    For decades, numerous governmental and non-governmental 
organizations, including many here this morning, began to focus 
on declining health of the Bay and on the steps necessary to 
stop the decline and hopefully assist in the restoration and 
protection of this resource. As an example, the ever-present 
Save the Bay bumper stickers have encouraged citizens' 
awareness for over 40 years.
    Yet awareness of the issues and achieving cleanup results 
are two different ends of the same task. I am concerned that 
despite our efforts thus far, we are no further in actually 
restoring the ecological health of the Bay than we were decades 
earlier. Mr. Chairman, decades of study on the Bay have 
outlined where the problems are and identified how to address 
these problems.
    So this is not a question of what is wrong or how we can 
clean it up. This entire debate boils down to one key point: do 
we have the commitment? Do we have the commitment to take steps 
necessary to control the sources of nutrients and silt that 
continue to pollute the Bay? Do we have the commitment to take 
an aggressive stand on land use and non-point sources of 
pollution? Do we have the commitment at all levels of 
Government to collect and spend necessary financial resources 
to make a different in addressing ongoing sources of pollution 
to the Bay?
    Without an aggressive commitment to address ongoing sources 
of pollution and to fund necessary projects throughout the 
watershed, I am certain that when we revisit this issue in the 
next reauthorization of the Chesapeake Bay Program, the 
statements you hear will be the same as today: that we know 
where the problems are, but we are not aggressively taking 
steps to address them.
    I hope after today's witnesses, which I look forward to 
hearing, we might be able to move forward. Thank you very much.
    Mr. Duncan. Thank you, Ms. Johnson.
    Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    I want to thank you and the Ranking Member for holding this 
hearing today. And actually, I enjoyed listening to both of 
your statements. They were a combination of describing the 
beauty in an eloquent fashion of the Chesapeake Bay watershed, 
and quite accurately, I might add, the history of human 
activity in the Bay watershed, and the fact that now we know 
how, we understand the physics of the ecological system of the 
Chesapeake Bay. So we know what the parameters are for fixing 
this problem, and it is in essence making human activity 
compatible with nature's design. And the science of that is 
evident. Our commitment has to be reinvigorated.
    What we are trying to do with this reauthorization is to 
take this legislation that has been around now for almost 20 
years and fine tune it to the extent that there is more 
collaboration, more coordination from the Federal agencies, the 
vast array of Federal departments, with the State governments 
and the local governments, so each has an enhanced but an 
acceptable amount of responsibility to not only report the 
findings but do something about the findings.
    So today, we would like to have some understanding from the 
perspectives of the witnesses as to what are the greatest 
accomplishments of the Chesapeake Bay Program to this point, 
what are the weaknesses of the Chesapeake Bay Program up to 
this point. And where are we as far as restoring living 
resources, water resources, vital habitats and managing open 
space?
    And in Maryland, for example, how are we managing our 
critical areas laws? Are we enforcing this with all our 
efforts? Or are we lax with the relationship between State and 
local planners? How do we deal with sprawl? How do we deal with 
impervious surfaces? Impervious surfaces in the last 10 years 
have increased by 40 percent as the population has increased by 
8 percent.
    And we know that impervious surfaces are one of the key 
difficulties with restoring the Bay habitat. What is the 
relationship between EPA and USDA as far as the Chesapeake Bay 
Program is concerned? What is the relationship between EPA and 
all the other Federal agencies that have an impact on the 
Chesapeake Bay? Do we have a prediction as to how much water is 
available for future development and what about the sewer 
systems and their impact over the next 20 or 30 years?
    Is there an effective collaborative nature of the program 
with small watershed grants between the various States, between 
the various agencies? What is the relationship between the 
Corps of Engineers and EPA, especially with non-native species 
and the introduction of non-native species?
    The involvement of the President's cabinet with the Bay 
restoration, Federal agencies, the Chesapeake Bay ecosystem and 
the unified plan. That is an entity that has a working 
relationship with the Bay program. The States' role. I guess I 
could go on and on.
    One last comment about the State and local government. How 
well are they coordinated, collaborative effort with the 
program to ensure fair and equitable distribution of the 
limited funds for small watershed grants? And certainly, we 
want to increase the amount of money for those small watershed 
grants, because that is where the rubber hits the road.
    In this huge bureaucracy, we need initiative, ingenuity, 
intellect, clarity, collaboration and strong, determined 
leadership. And the goal sits out there. How are we compatible 
with nature's design? That is our target. That is the local 
planners' target, the county commissioners' target, the mayors' 
target, the manager of EPA, USDA, the Federal agencies, the 
Governor, DNRs, you name it. How do we become more compatible?
    So I really look forward to everyone's testimony and I want 
to thank the Chairman for his indulgence with my, what can we 
say, too much chatter? Passion.
    But what I would like to do is submit my official statement 
for the record and former Governor Baliles from Virginia, his 
statement into the record. Thank you, Mr. Chairman.
    Mr. Duncan. Without objection, those statements will be 
placed in the record.
    Dr. Boustany, do you have a statement?
    Mr. Boustany. Thank you, Mr. Chairman.
    I am just going to say, I want to commend my colleague, Mr. 
Gilchrest, for the hard work, the passion that he brings to 
this issue. And also state that much of what we have learned 
with the Chesapeake Bay applies also to my home State of 
Louisiana and the coastal issues that we deal with.
    With that, I look forward to the testimony. Thank you.
    Mr. Duncan. All right. Thank you very much.
    Ms. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman.
    I know that, coming from Pennsylvania, it is our 
tributaries that flow into the Chesapeake. I have been a strong 
proponent of bringing home Federal dollars to assist a lot of 
the small, rural communities in my district to improve 
wastewater facilities and make sure that we are being 
responsible stewards of those Pennsylvania tributaries to make 
certain that the national treasure that we have in the 
Chesapeake Bay continues to be a place where it is 
environmentally sound that we continue to respect the integrity 
of that.
    So we appreciate the two of you being here today and we 
will continue in Pennsylvania to work to keep our streams and 
rivers clean. Thank you.
    Mr. Duncan. Thank you very much, Mr. Shuster.
    As we have discussed at other times, there is an important 
Federal role in regard to this work, because people from all 
over the Country come to and visit the Chesapeake Bay area. On 
the other hand, I know from my home area and places all over 
the Country, people have gone berserk over land that is on the 
water. The value of the properties on water have just exploded. 
What that means is that some of the local governments are going 
to have to shoulder perhaps a little more of the burden also 
than they have done in the past. But we will get into that as 
we go along.
    Our first panel is a members panel. In my six years 
chairing the Aviation Subcommittee and now my sixth year 
chairing this Subcommittee, with members panels, I always ask 
the members to withhold any questions to the members in 
consideration of the fact that these members have very busy 
schedules and need to get on to other things, and also, because 
we can discuss matters with them on the floor and at other 
times.
    So we will put your full statements into the record and we 
give you, we ask that witnesses limit their statements to five 
minutes. We know it is hard to get a five minute statement 
sometimes into that amount of time, so we give you six minutes. 
But after that, we ask you to stop, so we can get on to other 
witnesses.
    We will go first with ladies first, our friend, 
Congresswoman Jo Ann Davis, who represents the Commonwealth of 
Virginia. Ms. Davis.

 TESTIMONY OF THE HONORABLE JO ANN DAVIS, A REPRESENTATIVE IN 
   CONGRESS FROM THE COMMONWEALTH OF VIRGINIA; THE HONORABLE 
BENJAMIN L. CARDIN, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
                          OF MARYLAND

    Ms. Davis. Thank you, Mr. Chairman, and thank you for the 
opportunity to be with you today.
    I appreciate your efforts, and I thank you for allowing me 
to sit in on your committee this morning.
    Mr. Duncan. Let me interrupt you just a moment. I have to 
run and do a vote in another committee. Dr. Boustany is going 
to take over for me, but I will see your full statements.
    Mr. Boustany. [Presiding.] Mr. Chairman, while we are 
waiting for the change in chair, I just want to welcome Ms. 
Davis and Mr. Cardin this morning. I would be remiss if I 
didn't say that both these members work very hard for the 
restoration of the Bay that they also reside on. Thanks for 
coming to testify today.
    Ms. Davis. Thank you.
    Mr. Boustany. You may proceed.
    Ms. Davis. Thank you, Mr. Chairman. To my colleague on the 
other side of the water, Representative Gilchrest, I want to 
thank you for your efforts on behalf of the Chesapeake Bay. As 
a member of the Chesapeake Bay Watershed Task Force, I commend 
you for your leadership and your dedication to the Bay. In the 
six years that I have been here, I have heard about the Bay 
from you for those entire six years.
    The Chesapeake Bay is a national treasure, as I said, and I 
am proud and honored to represent Virginia's First 
Congressional District, which spans most of the Bay's western 
border. The James, York and Rappahannock Rivers, three of the 
Bay's major tributaries, flow through my district. The Bay and 
tributaries have shaped and continue to shape the lives of the 
residents of Virginia, especially in my district. I want to see 
the Chesapeake Bay restored and the environment improved.
    We as a Nation have a special responsibility to act as 
stewards of our natural resources and environment. In Virginia, 
we are gearing up for the 400th anniversary of America's 
founding at Jamestown. Part of the commemoration, hopefully, 
will include the designation of the Captain John Smith 
Chesapeake Bay National Historic Water Trail.
    John Smith explored most of the Chesapeake Bay and the 
tributaries in 1607 and 1608. What he found was an astonishing 
assortment of wildlife and beautiful scenery. He wrote in his 
journal, ``Heaven and earth never agreed better to frame a 
place for man's habitation.'' And I, along with about 16 
million other people, agree that the Bay and its tributaries 
are a great place to live. They are also worth protecting and 
taking strides to improve the health of the region's waterways.
    The Chesapeake Bay 2000 Agreement focused on significantly 
reducing nutrient pollution and sediment deposits by 2010. That 
date is fast approaching and with much still left to do. 
Improved water quality is and should remain the number one 
priority of the State, Federal and local partners involved in 
the Bay cleanup. This is such a large undertaking and the 
complexities of understanding such a large estuary are 
daunting. The Federal and State governments have already 
invested billions, and it is our responsibility to make sure 
that we are getting the most cleanup for our tax dollars.
    I am encouraged by Representative Gilchrest's vision to 
address these concerns by increasing the responsibilities and 
the role of local governments in Bay restoration. Localities 
and individuals are vital components of any action and plan to 
clean up the Bay.
    I want to take a minute or two to give a couple of concrete 
examples that exemplify a wide range of local efforts underway 
to improve water quality in the Bay region. This morning the 
National Association of Counties recognized the efforts of 
community volunteers in Caroline County, Virginia. About a 
dozen volunteers were instrumental in assisting local officials 
with a critical wastewater project.
    Dawn is a small, rural community without indoor plumbing. 
Poor drainage and heavy storms wash waste into the drainages, 
threatening wells, groundwater and public health. Seeing the 
need and recognizing the health and environmental impact, 
volunteers assisted local officials to collect easements and 
regulatory paperwork. Thanks in large part to volunteer 
efforts, the community is slated to begin construction of a 
wastewater facility early next year.
    This is just one example of how local officials and 
communities working together can address the health and 
environmental problems that will ultimately impact the health 
of our waterways.
    I want to give you one more example of the important role 
that local governments are playing in Bay restoration. 
Fredericksburg, Virginia is reflective of many areas in the Bay 
watershed. Located just south of D.C., the whole region is 
feeling the pressures of growth and the strains associated with 
traffic, congestion and land use. In Fredericksburg, along the 
banks of the Rappahannock, the local government has just voted 
to place 31 miles of riverfront land under conservation 
easement, creating an important buffer against runoff and 
development. This is another examples of concrete steps that 
local groups are making to preserve green spaces, to protect 
Bay tributaries and enhance restoration efforts.
    Finally, I want to remind the Committee of the important 
role that our watermen, oystermen and commercial fishermen of 
eastern Virginia have in the future health of the Bay. 
Generations of watermen have fished and lived off the water. 
Still in my district, commercial watermen, private companies 
and individuals are cultivating millions of oysters each year. 
Oyster aquaculture business adds oysters that clean and filter 
Bay waters, an important component to improving water quality. 
These men and women know better than most the status of the Bay 
and their input is essential.
    Residents of Northumerland County have relied on the health 
and the bounty of the Bay's fish stock for generations. 
Reedville, Virginia is the third largest fishing port in the 
United States. It is a little tiny rural area. We need to 
ensure that when these issues are discussed that local 
communities and businesses that have the knowledge, investment 
and stake are consulted and involved in the process.
    I believe that the Chesapeake Bay Program and the EPA 
should make it top priority to meet mandated improvements to 
water quality before embarking on efforts to manage fisheries 
which may be best addressed under the existing structure at the 
National Marine Fisheries Service and the Atlantic States 
Marine Fisheries Commission.
    I want to just say that when I was in the State 
legislature, I was on the Chesapeake Bay and its Tributaries 
committee then. Like Representative Johnson said, we have all 
discuss it, we all know the problems. But it is going to take 
the commitment of all involved, the Federal, State and local, 
to do what is necessary to clean up our Bay, keep it clean for 
our generations and for future generations to come. I have a 
granddaughter three months old and I want it to be there for 
her in years to come.
    I thank you, Mr. Chairman, for indulging me.
    Mr. Boustany. We thank you for your testimony.
    Next we will hear from the Honorable Benjamin Cardin from 
the State of Maryland. Mr. Cardin, you may proceed.
    Mr. Cardin. Thank you, Mr. Chairman. Let me thank you for 
this opportunity to testify. I want to thank Mr. Gilchrest for 
his leadership on this legislation. I am proud to join his as a 
co-sponsor, along with every member of the Maryland 
Congressional delegation, as well as many other members. I want 
to also thank Jo Ann Davis for her leadership on this issue.
    Mr. Chairman, let me go back if I might, I am not going to 
go back 400 years, a lot has changed in the Chesapeake Bay 
since Captain John Smith traveled down it. But in the 1980's, 
before the Federal partnership was created, I was the speaker 
of the Maryland House of Delegates and Harry Hughes was 
Governor of Maryland. We, along with colleagues from 
Pennsylvania and colleagues from Virginia and the Nation's 
capital, got together in an effort to try to do something about 
a Chesapeake Bay that was in trouble.
    We developed a partnership in the 1980's and recognized 
that unless we took dramatic action, the Bay that we loved, the 
Bay that was part of the life of the people of this region and 
Nation, one of the great treasures of our Country, would be 
lost. We developed a program that changed laws in our States 
and formed partnerships with private organizations and got 
people energized about taking some dramatic action, including 
land use controls and restrictions on fishing and all types of 
matters that were extremely controversial for the time.
    We then went to the Federal Government, almost 20 years 
ago, and said, help us, be a partner. And the Federal 
Government said yes.
    So I want to start by thanking you, thanking this Committee 
and thanking Congress and thanking the Federal Government for 
being a partner on the Chesapeake Bay Restoration. We could not 
have made the progress that we have made over the last 20 years 
without your help.
    Now, there are many who will come up, including myself, 
saying that we have tremendous challenges ahead of us. The 
Chesapeake Bay is in trouble. But if it were not for the 
Chesapeake Bay partnership that was started in the 1980s, the 
Chesapeake Bay could very well be totally gone today.
    We have established a way in which we can deal with these 
problems. We need to strengthen it. And that is why Mr. 
Gilchrest's legislation is so important. We can not do it now 
without your help to take us to the next plateau.
    And that is what his legislation does. The Chesapeake Bay 
is a national treasure, but it is also a national model. And we 
can work together to do a much better job on the Bay. The dead 
zones are frightening to all of us. We see the fish that have 
cancerous tumors and we know about the striped bass in this 
region. We know that we are the habitat for the striped bass, 
and we are worried that your granddaughters will not see 
striped bass in the future unless we take action today in order 
to deal with these issues.
    So the Gilchrest legislation renews the commitment, expands 
the commitment and looks at new challenges that we face. And 
one of those challenges is to energize local governments. I am 
glad that Wayne mentioned that. I live in a county of 775,000 
people. Wayne lives in a county of 20,000 people.
    Mr. Gilchrest. It is 18,000.
    Mr. Cardin. You lost two?
    [Laughter.]
    Mr. Cardin. Well, then, will have to adjust the lines a 
little bit in redistricting.
    But we have the same challenges. This bill does not mandate 
local government action. It involves local government, tells 
them to be a partner and help us and gives them the resources. 
I couldn't agree more with Mr. Gilchrest about how much we get 
back from these grants, these small grants that we make, that 
energize school children and energize local government to be 
part of it.
    We have a serious problem. The Bay is not flushing itself 
fast enough. We put too much pollution into the Bay with the 
nutrients and the sediments. We are falling behind. Despite all 
our efforts, we are falling behind. We need a new push on the 
program, and we really are looking to this Committee to give us 
that help. This legislation is vitally important if we are 
going to be able to win the Bay for future generations. We can 
do it, but we need your help, and I thank you very much for 
holding this hearing.
    Mr. Boustany. Let me just say that at the beginning, I 
complimented my colleague, Mr. Gilchrest, and I want to 
compliment the two of you for the passion and drive that you 
bring to this, and the long hours of work that you have put 
into it as well.
    We appreciate your testimony and thank you, and we will 
submit the entire testimony into the record. Thank you.
    Mr. Gilchrest. Mr. Chairman, if I could just make a very 
quick comment to Ms. Davis and Mr. Cardin. And Ben reminded me 
of this, and so did Jo Ann. More than 20 years ago, when both 
of you were working on these Bay issues, before there was a Bay 
program, what you did back then is a great model for what we 
can do right now. While the Bay is in trouble and there are 
dead zones and a number of other difficulties, there were 
portions of the Bay, because of what you did, especially in 
some of the tidal basins that are blossoming, they are 
flowering, they are restoring themselves into nature's 
beautiful bounty.
    An example is the Sassafras River. Because of what you did 
back then, and because of Critical Areas legislation, and 
because of what you did to create buffers, the bay grasses in 
much of that tidal basin and the restoration of the species is 
really wonderful. But that is specifically tied to what you did 
prior to the Bay program. The Bay program is trying to enhance 
that. But the foundation that you have built, that we need to 
build upon, is a blessing to us all.
    Mr. Cardin. Well, the Volvo races will restart, as you 
know, in the Bay. I think if we didn't do what we did 20 years 
ago, they may not have wanted to come into the Bay.
    Mr. Gilchrest. Absolutely, Ben. Thank you very much.
    Mr. Boustany. Before the two of you leave, the Honorable 
Ranking Member of this Subcommittee would like to say a few 
words.
    Ms. Johnson. I simply want to thank you for coming and to 
say thank you for coming back to the Committee. Twenty years 
ago, you were a member of this Committee and set some of this 
in motion. And we appreciate both of you.
    Mr. Boustany. Thank you both.
    We will now call forth our second panel. Let me say thank 
you all for coming. We have a very distinguished second panel, 
as we continue to look at the Chesapeake Bay Program 
reauthorization. Welcome to all of you. We look forward to your 
testimony.
    Our first witness will be the Honorable Benjamin Grumbles, 
with the U.S. EPA, Assistant Administrator for Water. Mr. 
Grumbles, thank you for joining us, and you may begin your 
testimony.

TESTIMONY OF BENJAMIN H. GRUMBLES, ASSISTANT ADMINISTRATOR FOR 
 WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY; HONORABLE C. RON 
 FRANKS, SECRETARY, MARYLAND DEPARTMENT OF NATURAL RESOURCES, 
CHESAPEAKE BAY EXECUTIVE COUNCIL; ANN PESIRI SWANSON, EXECUTIVE 
 DIRECTOR, CHESAPEAKE BAY COMMISSION; PENELOPE A. GROSS, MASON 
 DISTRICT SUPERVISOR, FAIRFAX COUNTY BOARD OF SUPERVISORS; ROY 
 A. HOAGLAND, VICE PRESIDENT FOR ENVIRONMENTAL PROTECTION AND 
             RESTORATION, CHESAPEAKE BAY FOUNDATION

    Mr. Grumbles. Thank you, Mr. Chairman. It is always an 
honor to appear before the Subcommittee, particularly to talk 
about efforts to restore and protect the Chesapeake Bay. I am 
Ben Grumbles, Assistant Administrator for Water, at the U.S. 
EPA. Rebecca Hamner and Mike Burke of the Chesapeake Bay 
Program office are also with me, sitting behind me.
    I was not disappointed by the level of the eloquent 
statements that have been made so far in terms of the members 
and the panelists. I am sure there will be more eloquence from 
the rest of this panel.
    I am just reminded of the statement from Will Shakespeare 
that action is eloquence. I know that as you go through this 
important hearing and you have a lot of questions and follow-up 
questions, that the real measure will be the actions that are 
taken as a result of the hearing and the progress that is 
taken.
    So in my moment of time here, what I would like to do is 
summarize very briefly activities of the U.S. EPA and the 
history of accomplishments that focus more on what we are doing 
now with our partners and what we need to be doing. The 
overarching goal and the directive from the President to the 
Administrator is to accelerate the pace of environmental 
protection. And the Chesapeake Bay is a national treasure, and 
as Congressman Cardin said, it is also a national model.
    So far more is at stake, as you know with your strong 
interest in coastal Louisiana and elsewhere, there is far more 
at stake here than just the Chesapeake Bay, although it is 
truly a national treasure.
    The history of the program, we have seen great 
accomplishments. And when we acknowledge that 1,800 miles of 
streams, migratory fish passageways have been opened, it is the 
highest number in the Nation in terms of opening up the streams 
and watersheds for migratory fish passage. That is an 
impressive accomplishment.
    There are also impressive accomplishments in terms of the 
green infrastructure, forested buffers and wetlands that have 
been restored and protected. There are also measurable 
accomplishments in terms of recovering the populations, the 
numbers of striped bass or rockfish, although we still have 
important work to do in ensuring the quality of those important 
links in the ecosystem and the food chain.
    The main message, though, is that there is much more work 
to do. As you know, we do have dead zones, or very low 
dissolved oxygen levels at certain times of the year. The 
oyster population is at great risk. There are tremendous 
challenges ahead and much work that we need to do, all of us 
together, to accelerate the pace of environmental protection.
    I would like to emphasize some of the actions that we are 
currently undertaking. In the President's budget request, the 
agency is seeking for the Chesapeake Bay Program an increase of 
$4 million above the baseline from last year. So it is a $26 
million total.
    That is one piece, one very important piece, but it is a 
piece in a program that can provide scientific, cutting-edge 
information and stewardship and help to facilitate this grand 
collaboration that needs to occur to make progress in the 
Chesapeake Bay.
    I would like to mention that the current activities for the 
agency are to focus on the core Clean Water Act regulatory 
programs, the water quality standards, the permitting, the 
pollution budgets, the collaborations that need to occur, and 
to use those and to continue to use those tools while also 
using innovations and collaborative efforts, cooperative 
conservation, which is a real priority for the Administration, 
bringing together USDA, EPA, Army Corps, DOT, other Federal 
agencies together to work with the critically important 
partners, the States and the local governments, and perhaps 
most importantly private citizens and real stewards that are 
going to make a difference. And we all want to make a 
difference.
    The Chesapeake Bay Program has seen some significant 
success in terms of working with our State partners to 
establish our water quality standards, nutrient goals and 
requirements. That is a tremendous important effort. And it 
wouldn't happen without EPA's support for the States who are 
the primary leaders in that regard.
    At the end of 2004, EPA, working with our State partners, 
all the way from New York to Virginia to West Virginia to the 
States within the 64,000 square mile watershed agreed to a 
collaborative, innovative approach for watershed based 
permitting. And we think that is going to lead to improved 
regulation of over 450 facilities throughout the watershed and 
an annual reduction of 17 million pounds of the nitrogen 
loadings. The nitrogen and phosphorus continue to be one of the 
greatest challenges facing the Bay. So we need innovative 
approaches like that.
    Mr. Chairman, one of the key components of our approach, 
our strategy, is to build new partnerships and collaborations 
with different agencies across the Federal Government. We are 
committed to doing that. We are also committed to using tools 
under the Clean Air Act. The Clean Air Interstate Regulation, 
which was recently finalized, will help lead to a reduction of 
10 million pounds of nitrogen over the course of its 
implementation.
    Mr. Chairman, I appreciate the opportunity to highlight 
some of the priorities for the agency and the Chesapeake Bay 
Program and look forward to answering any questions members may 
have.
    Mr. Boustany. Thank you, Mr. Grumbles.
    Our next witness is the Honorable Ron Franks, Secretary of 
the Maryland Department of Natural Resources. We appreciate 
your coming here today and look forward to your testimony. You 
may proceed, sir.
    Mr. Franks. Thank you, Mr. Chairman. Good morning, I am Ron 
Franks, Secretary of the Maryland Department of Natural 
Resources. With me today is Frank Dawson, our Assistant 
Secretary for Chesapeake Bay Programs.
    The restoration of the Bay is an unprecedented effort. It 
began with a set of untested assumptions and a steep learning 
curve for a complex, dynamic ecosystem. Pennsylvania, Virginia 
and Maryland have greatly increased funding for the Bay. 
Pennsylvania's Growing Greener II initiative will invest $625 
million in environmental restoration programs and projects. 
Maryland's new Bay Restoration Fund will provide $75 million 
annually to upgrade sewage treatment plants and plant cover 
crops, greatly reducing the amount of nutrients entering the 
Bay.
    Tributary strategies are now in place for almost all of the 
Bay jurisdictions. And implementation plans are under 
development. Maryland's draft implementation plan was released 
in February.
    Washington, D.C., one of the Bay's largest urban pollution 
sources, has embarked on a long-term control plan that will 
reduce combined sewer overflows by 96 percent. Virginia 
recently committed to preserving 400,000 more acres, and 
Maryland has committed to spending $300 million for land 
conservation this year alone.
    Just last month, Maryland's Governor Robert Ehrlich signed 
the Healthy Air Act, to reduce the atmospheric deposition of 
pollutants to the Bay. Combined, these and other ongoing 
measures may well bring us close to the tipping point at which 
we may see dramatic improvements in water quality and living 
resources. We agree with the findings and recommendations of 
the GAO evaluation of the Bay program, which we understand 
provided a foundation for the development of H.R. 4126. I want 
to compliment Congressman Gilchrest on his legislation.
    We also agree that the bill's key element, bringing the Bay 
restoration effort closer to the local level, is what is most 
needed. My written statement discusses how the issues raised in 
the GAO report are being addressed and provide suggestions for 
further improvement through changes to H.R. 4126. Here are 
three key recommendations. First, shift the program's 
perspective to Bay-wide to local improvements. While the Bay 
program needs to continue to report on Bay-wide health, local 
progress will be far more telling than Bay-wide assessments in 
measuring the effectiveness of efforts.
    The foundation for assessing progress at the local level is 
already included in the tributary strategies. The Bay program's 
planning and assistance should focus on how to accelerate 
tributary strategy implementation, shifting focus among 
priority watersheds over time.
    Second, strategically employ the limited resources 
available for Bay restoration. Resources should be concentrated 
in communities that are engaged in leveraged partnerships for 
coordinated, large scale restoration efforts. Prior to the GAO 
evaluation, Maryland was already moving forward to utilize its 
resources more effectively. Beginning with the Corsica River 
initiative announced last year, we are targeting resources 
where there can be a clear showing of substantial improvement. 
This legislation will support and expand these efforts.
    Finally, increase the Federal contribution to improving 
local capacity. A specific program should be established within 
the Bay program to improve local capacity for environmental 
planning and measurement. To initiate and sustain local 
protection and restoration efforts, a substantial increase in 
financial assistance to local governments as needed.
    As a starting point, the Chesapeake Bay Program needs to be 
funded annually at the full authorized level, which is 
currently $40 million. We feel the current authorization should 
be increased to at least $50 million. Any increased funding 
should be dedicated to the State implementation grants and 
small watershed grants program.
    I note that while the States have substantially increased 
spending on the Bay, the promised benefits of these increases 
will be canceled out if Federal spending for clean water 
programs continues to decline. That decline needs to be 
reversed.
    In concluding, I ask for your perseverance. We are 
attempting to do what has not been done before. We are in this 
for the long haul and there will be a long haul. In spite of 
the challenges, we have been able to move forward and achieve 
substantive improvements in the Bay and its tributaries. With 
your support, the progress will continue.
    Thank you.
    Mr. Boustany. Thank you, Mr. Franks.
    Our next witness will be representing the Chesapeake Bay 
Commission, Ms. Ann Swanson, Executive Director. You may 
proceed.
    Ms. Swanson. Thank you very much.
    I would like to thank each and every one of you here on the 
Committee, both Committee members and staff, for your attention 
to the Chesapeake Bay. Representative Cardin couldn't have said 
it better when he said thank you. Because in truth, the Federal 
involvement in the Chesapeake Bay has been an extraordinarily 
catalyst for the region. You should never underestimate the 
power of that.
    I work for three general assemblies, from Maryland, 
Pennsylvania and Virginia, representing the Chesapeake Bay. 
Your efforts to support the Bay essentially help to encourage 
them to do State level programs. And for every dollar that you 
ante up as cash, of course they do too. And then they call upon 
their citizens and local governments to do more. So this is 
truly an example of leveraging.
    In my limited time here, I hope you will indulge me, I have 
decided to go a bit off script and instead to really talk about 
the basics of why this investment is so critically important. 
The first question that you have to ask yourself is why is the 
Bay so special. And I was delighted to hear Representative 
Johnson refer to it as a wonder of the world. I have only dared 
to call it a national treasure. So I am glad a Texan went 
higher.
    To me, why is the Bay so special? It is one of the most 
productive places that this Country has to offer. Its diversity 
is extraordinary, with 3,600 species of plants and animals. The 
Chesapeake Bay is a protein factory, producing a lot of our 
Nation's fish, spawning most of our Nation's striped bass, 
still producing a huge portion of our blue crabs. In fact, many 
of the iconic American natural resources, whether those are 
waterfowl or fish, come from the Chesapeake Bay. They may come 
from other places, but if you were designing a Kix box or some 
cereal box, those icons would be very prominent in our region.
    So why then are we floundering? Why is it so difficult to 
restore the Bay? And there are some fundamentals you must know, 
that essentially nature and God have dealt us. One is that it 
has the largest land to water ratio of any estuary on the 
planet. It is five times more than the next nearest estuary. 
What that means in layman's terms, what you do on the land, 
greatly affects the water and dilution cannot be counted on.
    And the third fundamental thing that you need to know about 
why it is so important is there is an extremely narrow opening, 
which people like Jo Ann Davis and others know about. And so as 
a result, just counting on the ocean to carry that pollution 
away is very difficult.
    Finally, confounding it, we have 16 million people spanning 
the Mason Dixon line. We have an enormous number of 
governments, 1,600 or more ruling local governments, and they 
all need to be coordinated.
    So in my remaining time, let me focus on what has been 
accomplished. Extraordinary participation, some of the finest 
science in the world. It is why we are asked to go 
internationally and speak. We know more about this estuary than 
most other places. And I would only wish many other places in 
America and globally to know as much about their place.
    So then what is wrong? If we know about it, we have also 
done more costing than almost any other natural place that I 
know of, certainly the other big estuarine and environmental 
programs of this Country. They call us to say, how have you 
done this, how have you costed it out? Where that gets you when 
you carefully define what you know about a place, what you need 
to do and how much it is going to cost, is it gets you to the 
implementation phase.
    And that is what is wholly unique about the Chesapeake 
region. We are deep into that implementation phase, and quite 
honestly and candidly, and my mother might not like me to say 
this, but it is hard as hell. It is incredibly difficult.
    So what do we need? What have we learned at this point? 
This legislation addresses several of those things. First, you 
must target, you must have the political guts to target. 
Because if you don't, with the limited dollars available, you 
can't go the distance. The idea of encouraging local 
governments to be more involved, the idea of small capacity 
grants for local governments is pivotal. Incentivize them. Get 
them having the guts to be innovative and proactive. They have 
the intellect. They have the compassion. They need support.
    And the last thing that I would say in my remaining time is 
in terms of the Federal Government, yes, we need the Federal 
agencies working very closely together. This legislation calls 
for an interagency cross-cut budget. That is a good thing. We 
need to push for strong integration and strong cooperation so 
that the Departments of Agriculture and the Departments of 
Energy and the Departments of Environment, the EPA, et cetera, 
are working very closely together.
    I commend this legislation. You are heading in the right 
direction, getting more money at the local level and in the 
small watershed grants, and calling on increased targeting. 
Thank you.
    Mr. Boustany. We thank you for your testimony. Next we will 
hear from the Honorable Penelope Gross, representing the 
Chesapeake Bay Local Government Advisory Committee. She also 
serves as Mason District Supervisor on the Fairfax County Board 
of Supervisors from Annandale, Virginia. Welcome, and we look 
forward to your testimony. You may proceed.
    Ms. Gross. Thank you and good morning, Mr. Chairman. I 
appreciate the opportunity to discuss Chesapeake Bay 
restoration activities and the vitally important role of local 
governments in those efforts.
    Chesapeake Bay issues are of particular interest to me as a 
founding chairman of the Chesapeake Bay Policy Committee of the 
Metropolitan Washington Council of Governments, a member of the 
Chesapeake Bay Program's Blue Ribbon Financing Panel, and I 
recently was elected chair of the Bay Program's Local 
Government Advisory Committee, also known as LGAC.
    I chair Virginia's Potomac Watershed Roundtable and as you 
mentioned, I represent Mason District on the Fairfax County 
Board of Supervisors. Fairfax County is one of the largest 
jurisdictions population-wise in the Chesapeake Bay watershed. 
Each of these responsibilities has helped shape my perspective 
on what is needed to keep our efforts to achieve a clean bay on 
track.
    Of the 98 commitments in the Chesapeake 2000 Agreement, 22 
specifically involve local governments and other commitments 
imply local government involvement. From a local government 
perspective, we know what to do to continue making progress. 
But we need more help from our State and Federal partners. The 
Bay program has successfully generated plans and documents that 
outline what actions local governments should take to restore 
the Bay. However, I believe we are heavy on written plans. And 
we are struggling on the follow-through, that is technical and 
financial assistance to get more done.
    This was the most common and strongly voiced concern among 
LGAC members from all jurisdictions at our most recent meeting 
held right here in this building. And I want to take this 
opportunity Congressman Gilchrest and his staff and Congressman 
Jim Moran's staff for engaging in substantive dialogue with 
LGAC members about this legislation.
    Local governments throughout the watershed are spending 
millions of local dollars to do our part in cleaning up the 
Bay. However, there needs to be greater emphasis on developing 
mechanisms to capture those substantial implementation efforts 
by local governments and others, which are not funded through 
State or Federal Chesapeake Bay funds.
    I understand that the States may be working on a tracking 
system for urban non-point sources, but to facilitate reporting 
by implementing entities, I would recommend that this system be 
web-based and simple to use. I am sure it is no surprise to you 
that the biggest help we could use is additional Federal and 
State funding. It is critical that the Federal and State 
governments in the watershed assume a major role in providing 
financial assistance for implementation at the local level.
    I also need to mention our concern with deep cuts being 
proposed to the Clean Water State Revolving Fund. While local 
governments and our State partners are working to increase 
funding for clean water programs, the Federal SRF is being 
targeted for cuts totaling $199.2 million. Many local 
governments, especially in rural areas of the Bay watershed, 
depend on this Federal funding to pay for high priority water 
pollution control projects and the proposed budget cuts are 
exactly the opposite of what is needed to achieve our goal of a 
clean and healthy Bay.
    But funding alone is not enough. We also need our State and 
Federal partners to work cooperatively with local governments 
on a watershed basis to one, clearly articulate measurable 
goals for local governments to achieve and couple these with 
appropriate levels of funding support. It is critical to have a 
detailed plan that explains who, what, when, where, why and 
how.
    Second, increase the level of support for the Small 
Watershed Grants Program to the proposed authorized amount of 
$10 million. While far short of the estimated funding 
necessary, the Small Watershed Grants may be the most effective 
mechanism for engaging local governments in a common effort to 
achieve water quality and habitat goals. The current funding 
level of $2 million translates into just $1,212 for each of the 
1,650 local governments in the Chesapeake Bay watershed.
    In addition, I recommend increasing the cap on individual 
small watershed grants to as much as $1 million, a substantial 
increase over the present $50,000 limit. Let me give you an 
example. In Fairfax County, we sometimes do not apply for 
watershed grants, because the staff time involved in preparing 
the grant application actually costs more than the grant 
itself. The current $50,000 cap effectively eliminates larger 
jurisdictions from participating in the Small Watershed Grants 
program.
    Third, establish a measurable goals provision for soil 
conservation districts comparable to the provision for local 
governments. Fourth, enhance the tributary strategies and 
implementation plans to explicitly address nutrient and 
sediment cap management as growth continues.
    Fifth, a one size fits all approach to local government 
coordination and C2K agreement implementation will not work. 
Differences in local government access to technology must be 
considered during the development of communication strategies. 
A strong, structured technical assistance program to local 
governments is needed, especially in smaller, more rural 
jurisdictions that lack staff expertise and stormwater 
management and watershed protection.
    Sixth, we are concerned about the proposed language that 
requires tributary strategy goals, or BMPs, to be included in 
NPDES permits, both point and non-point source or MS4 permits. 
In Virginia, non-point source pollution standards should not be 
written into MS4 permits, because the Commonwealth does not yet 
have an effective mechanism to track urban non-point sources.
    Each of these areas is of strong interest to LGAC. With 
appropriate staff and requisite resources, I can envision an 
activist role for LGAC as the tributary strategies are turned 
into action plans, including one, developing goals at the local 
level and helping ensure that localities live up to their 
responsibilities; two, partnering with State and local agencies 
to achieve an equitable allocation of funding; three, reaching 
out to other sectors, especially agriculture and private 
industry.
    We need to open or continue dialogue with all our partners 
in the Chesapeake Bay watershed. We are all in this together, 
from those who labor under the Statue of Freedom atop the 
Capitol, dome to the Pennsylvania farmer, to the Maryland 
waterman, the Virginia technology worker, the long-time 
resident and the new American. Finger pointing won't clean up 
the Bay. Working together just might.
    Mr. Chairman, thank you for the opportunity to appear today 
and for your leadership in helping keep the Bay restoration 
effort moving forward. LGAC is looking forward to working with 
you all to achieve our shared goals of a restored Chesapeake 
Bay watershed. Thank you.
    Mr. Boustany. Thank you, Ms. Gross.
    Next we will hear from a representative from the Chesapeake 
Bay Foundation, Mr. Roy Hoagland, who is Vice President for 
Environmental Protection and Restoration, out of Annapolis, 
Maryland. Welcome, Mr. Hoagland, and you may proceed.
    Mr. Hoagland. Thank you, Mr. Chairman, Congressman 
Gilchrest and members of the Committee. I am in fact the Vice 
President for the Policy and Advocacy Arm of the Chesapeake Bay 
Foundation, a non-profit organization of over 160,000 members 
across the Nation. Congresswoman Johnson, we are the Save the 
Bay bumper sticker people.
    I am here also as a former member of the citizens advisory 
committee to the Chesapeake Bay Program. I have served as its 
chairman for two years and just have completed my term. So my 
history is here as both an insider and an outsider when it 
comes to the Chesapeake Bay Program, both a critic and 
supporter.
    You have heard an awful lot already about the successes and 
the challenges that face the Chesapeake Bay Program. In the 
time I have, I would like to focus on the bill itself, to urge 
you to act favorably on this legislation, this critical 
legislation, and in fact, consider three modifications to it.
    The first modification is to strengthen the roles and 
responsibilities of the Federal Government in the Chesapeake 
Bay Program. We will not, we will not save the Bay absent more 
Federal dollars, more Federal enforcement and increased Federal 
commitment. You have heard about recent State commitments 
toward the Chesapeake Bay Program. We need a parallel Federal 
commitment. One provision in particular in the legislation does 
have us concerned where it actually reduces the Federal 
agencies' responsibilities to Bay restoration and the 
commitments of this Chesapeake 2000 agreement. We would 
respectfully suggest that provision be either removed or 
reworked.
    The second modification, provide a separate $20 million 
authorization for the Chesapeake Bay Program State 
implementation grants. You have heard a lot today about the 
need for implementation. That is the stage we are at. These 
grants are fundamentally different from the core research 
communication, coordination elements of the Chesapeake Bay 
Program. We urge not only independent authorization language, 
but also language that makes the use of those funds 
specifically contingent on implementation on the ground, not 
staff support, not agency operation costs, but implementation, 
because implementations are the next key steps that we need in 
terms of moving forward to saving the Bay.
    The third modification, create a new, separate $15 million 
authorization for a Chesapeake Bay targeted watershed grants 
program. The Chesapeake Bay has received targeted watershed 
grants in the past, and currently, as a result of EPA's 
national program, but only as a result of appropriation 
language earmarks. The Chesapeake Bay, as you have heard, is a 
national treasure. It is a resource of ecological, cultural, 
historic significance. And we would urge that you statutorily 
identify it as such through a targeted watershed grant funding.
    Those are the three modifications we would urge that you 
consider as you move this legislation forward. Strengthen the 
roles and responsibilities of the Federal Government in the 
Chesapeake Bay Program efforts; provide a separate $20 million 
authorization for the Chesapeake Bay Program State 
implementation grants; and make those grants contingent on 
actual, on the ground implementation use; and create a new, 
separate $15 million authorization for the Chesapeake Bay 
targeted watershed grants program.
    Congresswoman Davis stated that nearly 400 years ago, 
Captain John Smith wrote of the Chesapeake Bay that ``Heaven 
and earth never agreed to better frame a place for man's 
habitation.'' The truth is that we have not treated that 
extraordinary gift of earth and heaven with the full 
stewardship it deserves. As you have heard, we know the 
problems. We have the solutions. What we need is to make the 
necessary investments and aggressively pursue the 
implementation of these solutions.
    We urge you to perfect and pass this legislation so that 
the Bay Program, the Federal Government, all the partners to 
this restoration effort of this national treasure can move 
forward and more aggressively toward effective stewardship. We 
thank Congressman Gilchrest for his leadership not only on this 
bill, but for his historic leadership on Chesapeake Bay 
restoration efforts. And thank you for the time you have given 
us to participate today.
    Mr. Boustany. Thank you for your testimony, Mr. Hoagland.
    Now we will proceed with questions for the panel. Because 
of time constraints, I am pleased to defer to the Ranking 
Member, Ms. Johnson, to begin questioning.
    Ms. Johnson. Thank you very much.
    Mr. Hoagland, according to the Chesapeake Bay Office, 
roughly 45 percent of all the nutrients and two-thirds of the 
sediment loads that are negatively impacting the Bay come from 
agricultural, non-point sources. And yet, EPA has limited 
authority to address these non-point sources of pollution, 
other than trying to reach voluntary agreements to implement 
these management practices.
    Is that enough or is there a better way to address what 
appears to be the largest, most difficult source of impairment 
to the Bay?
    Mr. Hoagland. Well, agricultural and controlling pollution 
from agriculture is an incredibly leaky system, by the nature 
of agriculture itself. The Bay Foundation has embarked on a 
very aggressive partnership with the agricultural community to 
get them to be the kind of colleagues that you have heard 
about. There have been great steps made toward agriculture, but 
we do in fact have to make great, great further strides.
    The important thing to remember about regulating or 
treating agricultural pollution, which the Chesapeake Bay 
Commission has established is, we get a bigger bang for our 
buck from nutrient reduction if in fact we put it on 
agricultural lands than anywhere else. If we reduce sewage 
treatment plant pollution and manage agricultural pollution, we 
can get about 80 percent of the reductions that we need for 
about 20 percent of the projected cost of the entire 
restoration.
    So one of the tools should be in fact taking a very hard 
look at the Farm Bill and how we can put more directed funds 
out of that program into the Bay restoration effort, 
recognizing the Bay is in fact a national treasure and that it 
should in fact receive a fairer share of those Farm Bill 
monies.
    Ms. Johnson. Thank you very much.
    This question is--sorry.
    Mr. Grumbles. Congresswoman, if I could just add something 
to that, Secretary Johanns of USDA has had conversations with 
the leadership, the Chesapeake Bay Executive Council, with 
Administrator Steve Johnson, and is very enthused about being a 
very active partner in bringing to the table USDA programs and 
authorities.
    I just want to underscore Roy's comment about the benefits 
of improved control of nutrients and sediments. That will be 
accomplished through a variety of measures, including water 
quality trading where we are seeing leadership in various 
States. And it is a high priority of the EPA as well to try to 
make progress, significant progress for nutrients that often 
come off the agricultural lands. Thank you.
    Ms. Johnson. Thank you.
    I know that the Chesapeake Bay 2000 Agreement establishes a 
series of goals for the restoration and protection of the Bay 
by 2010, including correcting the nutrient and sediment related 
problems sufficient to remove the Bay from the list of impaired 
waters under the Clean Water Act. It is now 2006, and the 
authorization contained in the bill we are discussing today 
lasts through 2011.
    Given the pace of the current restoration efforts, is the 
Bay likely to be removed from the impaired waters list by 2010? 
Anyone on the panel or all.
    Mr. Hoagland. Congresswoman, given the current pace, no. No 
question. Given the current pace, we will not remove from the 
impaired waters list. That is precisely the problem, is that we 
need to step up that pace. We need to invest more, we need to 
be more aggressive.
    I don't want to overstate it, but one of the successes of 
the Bay program is that it has taken these years of science, 
these years of studies, so that we do know the problem. We know 
nitrogen reduction, we know where the sources are. And we even 
have the solutions, upgrade the sewage treatment plants, put 
the practices on the farm land. It is not difficult in terms of 
what we have to do. It is difficult in implementation. We are 
at the stage where we need to ramp up that implementation if we 
are going to get the Bay off the impaired waters list.
    Ms. Gross. Congresswoman, I would agree with Roy. I was one 
of those elected officials who thought that we could meet the 
2010 deadline. But that was back in 1998, 1999. When we needed 
the Federal Government to come in and tell us what the numbers 
should be, there was a great delay, 2000, the Chesapeake 2000 
Agreement was signed, we thought we might have some of the 
numbers, 2001 went by, 2002 went by, 2003.
    We finally got some of the numbers from EPA. That was a 
disappointment, and we will not meet the deadline by 2010. But 
we want to make sure that we are given credit, that the local 
governments are given credit for what they have been able to 
do. And it is does not absolve us of responsibility from 
continuing to try to reach a clean Bay.
    But by 2010? No. I now have said publicly many times, we 
are not going to make that goal.
    Mr. Grumbles. Your question is the question that everyone 
wants to ask. And it is a key question. I agree with the 
responses I have heard so far from an EPA perspective. At the 
current rate, we will not meet that goal. But we feel that it 
would be premature to officially remove that goal. There is a 
tremendous power of having a deadline out there to really 
emphasize action and acceleration of progress. So while our 
strategic plan recognizes that scientifically and realistically 
we need to have some additional milestones, we remain fully 
committed to that goal, and we think that we can make progress 
through innovative approaches that States and local governments 
and citizens and EPA are exploring aggressively right now.
    But there is no doubt that the pace needs to be 
accelerated.
    Ms. Swanson. Congresswoman, I would just like to add one 
brief thing, which is, I think you can look at the Chesapeake 
Bay much like an overweight person. The Bay is essentially 
bulging with nutrients and sediments, both of which are not bad 
in the body system, unless they are in excess, similar to our 
own fat.
    And so essentially what we have done with the Bay 
Agreement, and with the very specific numeric standards that 
now exist for those nutrients and sediment, is we have defined 
where the perfect weight is. Not John Smith's perfect weight, 
but rather where is the point at which you can have some 
nutrients and some sediment in the Bay, allowing for pollution 
essentially, and still de-list the Bay. And we have done that. 
And I don't know of other places around the Country that have 
gotten to that extreme.
    So now the question is, how do we capture it? Mr. Hoagland 
mentioned a study that the Bay region did on cost effective 
strategies. Because the elected officials in our region knew 
they didn't have the money and that they had to invest it 
wisely. And what that study showed was that if you carefully 
target at the point sources and five very particular 
agricultural practices, you can capture 75 percent of that 
nitrogen goal. So 75 percent of the weight loss, 78 percent of 
the phosphorus, and 100 percent of the sediment.
    Now of course, that assumes full implementation, which may 
never happen. But my point is, it is extraordinary and if that 
patient you were counseling on weight loss were to lose that 
level of poundage, you would be very close to your goal. And 
you would see a natural response in the body or the Bay to 
continue. At some point nature will help us recover as well. So 
I wouldn't be quick to give up. What I would be very quick to 
do is take your Federal dollars, take your Federal policy 
making and force the targeting and force the incentives to 
really go the distance. There is a lot that can be done.
    And finally, let me say this, nitrogen has no memory. What 
that means is if U.S. politicians get it out of the Bay, within 
a year's time you see the recovery. It is a magical pollutant 
in that regard, from a political point of view. Because you can 
see the rapid response.
    Thank you.
    Mr. Boustany. Mr. Gilchrest?
    Mr. Gilchrest. Thank you, Mr. Chairman.
    That was a wonderful analogy, somewhat overweight. And I 
think it is a perfect analogy. I will add one thing to that. It 
is not one person that has to lose that weight.
    [Laughter.]
    Mr. Gilchrest. It is a lot of people. If that one person 
was in this room today, they would understand what we are 
talking about. They would get the information direct from each 
of us.
    One of the problems with the Chesapeake Bay watershed, 
though, is that there are a lot of overweight people out there 
that do not have access to the information about nitrogen and 
phosphorus and air deposition and sediment and sewer and 
buffers and critical areas and agriculture and all those 
things. The dissemination of the information, even in this age 
we are now in, is not quite what it is, what it could be or 
should be.
    So these overweight people, sometimes they never even hear 
the word Chesapeake Bay Program or how to lose the nitrogen. So 
part of my question, and in just a minute I am going to ask how 
we can get to that point. Because what we are doing here, and 
we all want to work hard on the restoration of the Chesapeake 
Bay, and the Federal partners that we have here today with this 
Committee, I think in the last year or so, this Committee has 
been more, with the exception maybe of when Ben was on the 
Committee, but this Committee is extraordinarily helpful in 
this effort, to write this legislation. And I do want to 
compliment the Committee for doing that, and I want to 
compliment Edie Thompson, sitting behind me, for all the hours 
and hours of work that she has gone through on this effort.
    I want to say something to Ms. Johnson's question about, 
and probably Mr. Hoagland, too, when you mentioned agriculture 
and nitrogen flow into the Chesapeake Bay. Agriculture for a 
long time, if we go back 500 years, it used to be the Indians. 
Then they started growing tobacco, then we came in and started 
growing commodity crops and all of those things. We put a fair 
share of nitrogen into the Chesapeake Bay.
    But there is a whole range of programs out there. And the 
Chesapeake Bay Foundation, along with the EPA, are really 
beginning to work well with agriculture, to keep agriculture 
economically viable and change its practices, so they can be a 
part of the restoration efforts. And we see that all over the 
Chesapeake Bay. We see where ag has changed its practices. We 
see those buffers out there, whether they are grass buffers or 
forested buffers.
    And you are right, Ann, that Bay comes back, within a few 
years, you have all kinds of bay grasses. And it is blossoming 
with American lotus blossoms late July, early August, if you 
want to come over and go canoeing and smell the sweet scent of 
that flower.
    And Ben, you described a whole series of things that EPA is 
doing. I know I have been working with Mike Burke, Mike has 
been an annex to our staff, I think, since 1990. We are doing 
extraordinary things with the technology that we have. And the 
Federal Government has been a pretty good partner.
    But can we keep pace with increasing populations in the 
watershed with what we are doing? Can we keep pace with those 
impervious services over the decades to come? Can we keep pace 
with the increasing amount of air deposition from the 
infrastructure of a human population?
    So I think there are great challenges out there. We have 
great things in place. We need to get right down into the 
person that just gets appointed to a planning office, so they 
know. We need to get right down to someone who is just newly 
elected mayor or on a town council or a county council or a 
county commissioner or county administrator or county 
executive. They have land use responsibilities.
    What I see in my district, not a small housing development 
of 60 houses being proposed, but 4,000 houses being proposed in 
small towns, 3,000 houses being proposed in small towns. And 
having no connection with that and the ecology of the 
Chesapeake Bay. So I guess my first question is, and I would 
like to see this done all over the watershed, I don't know to 
exactly go about doing it, but having been in office for a few 
years, and I go to town meetings all the time, I go to county 
meetings all the time and I go to planning meetings. I go to 
agricultural meetings and things like this.
    And I would guess, and I know it is not specifically in our 
legislation, but I would guess if the Chesapeake Bay Program 
coordinated with other agencies, maybe the Chesapeake Bay 
Foundation, certainly the Farm Bureau, and on a regular basis, 
you would visit in a year's time or two year's time every 
single, well, let's put it this way. You wouldn't have to go to 
every little single town in the watershed. You could have 
regular meetings bringing in one or two or three counties, 
depending on the population of those counties, and explain the 
bureaucracy of the Chesapeake Bay Program, and then explain the 
ecology of the Chesapeake Bay Program.
    And I would say, Ann, if you were at those meetings and you 
described the problem like you have described it here, and the 
rest of you described that problem, the dissemination of 
information and the education that people would have would be 
extraordinary. They would have information. They could use 
their initiative and their ingenuity and their intellect.
    Right now, the dissemination of this information is just 
not where it should be. So I have a couple of other questions, 
and I know I am out of time. With the indulgence of the 
Chairman, I will just ask a few of those questions.
    But what I would like to do is work with you, so we could 
pilot this in the First District of Maryland and have meetings 
at Salisbury State, Chesapeake College, Cecil Community 
College, Hartford Community College, Anne Arundel Community 
College; market this specifically to local government people 
that are going to make land use decisions for that kind of 
information.
    Ann, do you want to say something?
    Ms. Swanson. Yes. We have now been asking our own members 
to look forward and in the next, it is only five years, but in 
the next five years, what would you like to see on your 
accomplishment time line. These are all House and Senate 
members from Maryland, Pennsylvania and Virginia. And the only 
common thread the answer is to really see a technical 
assistance outreach program to local governments and really 
enhance technical assistance to the agricultural community.
    What I would say is if you tackled both of those, and I was 
at USDA just yesterday with a conversation among high level 
USDA people about that critical importance of supporting 
technical assistance for agriculture. And then of course the 
BMPs that go with it. But really getting the message out there, 
we have nothing like that, really, for local governments. And 
if you combine the two, then you can get the current progress 
that would come with agriculture, almost immediate response, 
and the long-term investment as we change the land to a more 
urban population. It is right on the money.
    Mr. Gilchrest. We don't want a more urban population, Ann.
    Ms. Gross. Congressman Gilchrest, it sounds to me like you 
are talking about one of the things that LGAC could be helpful 
in. One of the things that came up at our meeting that, you 
attended part of the meeting, but I think this happened before 
you were there, was one of our members, it was a Virginia 
member from down in the Fredericksburg area, said, you know, 
local governments really don't have a clue.
    Coming from a Fairfax perspective, that is a little hard 
for me to understand, but I am beginning to understand that not 
everybody is doing it the way we do in Fairfax. But there are 
an awful lot of small, local governments that simply do not 
have the ability, they do not have the staffing, they do not 
have the funding, they sometimes do not have the commitment. 
They don't understand, in many cases. And their constituents 
don't, either.
    So it is a selling job for those of us who are in local 
government to be able to sell this idea to our constituents 
also. I think that there is definitely a role for LGAC to be, 
it is part of what the local government advisory committee 
should be doing.
    One of the things I have noticed, ten years ago, when I was 
first elected, nobody was talking about the Chesapeake Bay. 
Now, some people were talking about it sort of on the 
periphery, those who were very involved in Bay issues. But 
generally, elected officials were not talking about the 
Chesapeake Bay.
    We have made some changes there, at the Council of 
Governments, even in the General Assembly of Virginia. A few 
years ago, none of the delegates would know what you were 
talking about, and now they are starting to ask the questions. 
Instead of us asking them the questions, they are beginning to 
ask the questions.
    So we are making some strides in educating elected 
officials about the Bay. We need to be able to do more of that, 
and I really like your suggestion about going around to various 
smaller localities and doing these sort of seminars for local 
government officials. Because you are absolutely right, we need 
to have that commitment, it starts at the local level.
    Mr. Gilchrest. Thank you.
    Mr. Boustany. Mr. Grumbles?
    Mr. Grumbles. I just wanted to--thank you, Mr. Chairman. I 
just wanted to say, Congressman, that while the Administration 
has not developed an official position yet on H.R. 4126, as I 
read through it, to me one of the very positive components of 
it, other than reauthorizing the building upon a very 
successful and proven statutory program, is the emphasis on 
local government and an increased role. As everyone is pointing 
out, given the challenge, the growth issues will always be a 
barrier, a potential barrier to accelerating the progress.
    It is very positive, very good to emphasize that in 
legislation as well as outside legislation. EPA certainly 
through the Chesapeake Bay Program office, will want to work 
with you to follow up on your suggestions about outreach at the 
grass roots level.
    And you mentioned the impervious surfaces and stormwater 
runoff. One of the things that we are really excited about at 
the Federal level is the new partnership with the Department of 
Transportation. It is called the Mid-Atlantic Green Highways 
Initiative. A couple of weeks ago, we announced a $1 million 
program targeted in the Anacostia, but it is about DOT and EPA 
working together and then translating that effort at the local 
level to have smarter practices to reduce the stormwater 
runoff, to increase the areas so that instead of runoff, you 
have sink-in and filter out the pollutants before they reach 
the Bay.
    So we are very appreciative of your theme on greater local 
involvement and controlling stormwater.
    Mr. Gilchrest. Thank you, Ben.
    I don't know if the Chairman had any questions. I was going 
to--I am way over my time.
    Mr. Boustany. What we will do, I have a few questions I 
would like to ask, and then I will let you go with another 
round.
    Mr. Gilchrest. Thank you.
    Mr. Boustany. Your testimony was great. I learned a lot. 
And I want to say that one of the common themes behind this all 
is, we are certainly dealing with a very complex ecosystem. 
Part of that complexity is sort of the human interaction with 
growth and development and other interactions with the 
ecosystem.
    Specifically, for the panel, I would like the opinion of 
each of you. Certainly you are aware of the recent GAO report 
and recommendations that were issued there. Do you feel that 
H.R. 4126 addresses the issues raised in the GAO report? I 
would like each of you to maybe comment on that.
    Mr. Grumbles, do you want to start?
    Mr. Grumbles. I can start and make a few comments. I think 
one of the messages from the GAO report, which we are certainly 
taking to heart, and that we have included in our recent 
report, health of the ecosystem and also the restoration 
efforts of the ecosystem, is the added emphasis on data and 
information to ensure accountability and results.
    So I see in the legislation, in my cursory review of it, 
because I need more expert review and opinion on it, but the 
legislation is clearly adding some reporting mechanisms to help 
steer future decisions and measure the progress and 
accountability. That clearly is the theme that comes out in the 
GAO reports and is reflected in the recent EPA reports on the 
health of the ecosystem and the restoration efforts we are 
taking.
    Mr. Boustany. Mr. Franks?
    Mr. Franks. Yes, and I would concur with that. The 
reporting requirements, I think, are essential. And I think the 
bill does address that. I feel for all of us reports are 
essential. We need to measure where we are, where we start and 
where we wind up. I think the bill does do that.
    Mr. Boustany. Ms. Swanson?
    Ms. Swanson. I guess I would like to say two things. The 
GAO report was very, very helpful. And essentially what it did 
was amplify something we had already been struggling with, 
which was, how do you tell a complex story in simple terms when 
you rely both on monitoring and modeling. And one doesn't tell 
the full picture.
    So the GAO report helped to kick us in the pants and 
basically say, you need to figure this out. And the new reports 
that the EPA Bay program recently put out are a real step in 
the right direction. Rebecca Hamner and others deserve a great 
deal of credit for the work they did trying to do that.
    But the other thing that the GAO very clearly laid out is 
that your goals are not doable at your current cash flow. And 
it very clearly outlines that. It very clearly says, you have 
goals, but you don't have the implementation plans, which 
includes cash fall, for how to get there. And so I see the GAO 
report as yet another wake-up call that, okay, everybody, round 
two, you have done the planning, you have gotten basic funding 
in place, but now let's go the distance.
    And things like what Mr. Hoagland suggested, with very 
specific pots of money for local government implementation, the 
small watershed grants, the targeted watershed grants, they are 
phenomenal tools to get us to the next step.
    Mr. Boustany. Ms. Gross?
    Ms. Gross. From a local government perspective, I think 
those of us who are on the outside looking in and reading that 
report, I was very concerned that the report would cause EPA to 
refocus everything sort of internally and sort of slow down 
what we were trying to do at the local government level. I 
think that has, I have been assured that that is not going to 
happen. But that was an initial concern, that whoops, all this 
work that we are trying to move forward now would be stuck 
because they would have to be spending all their staff time 
working on a response to the GAO report.
    I think that the reporting requirements, if this heightens 
our commitment, if the GAO report causes us to heighten our 
commitment and the reporting requirements, that is fine. I 
think that we really need to have projects on the ground, and I 
believe that this particular bill will help us to do that.
    Mr. Boustany. Thank you.
    Mr. Hoagland?
    Mr. Hoagland. Mr. Chairman, the GAO report highlighted, as 
you have heard, a need for increased reporting and 
accountability by the program. And there is no question that 
the legislation before you today addresses those reporting 
elements. And in fact, the Bay Program has in the recent past 
taken very responsible steps to address those concerns.
    What I am not clear that the legislation contains is the 
recommendation for a comprehensive, coordinated implementation 
strategy. One of the things before the Bay Program right now 
that has been debated that the Bay Foundation has advocated for 
is a very conscious, deliberate transition from research 
communication and coordination to implementation. So I would 
suggest that if you are looking for having all of those 
recommendations incorporated in the statute, you should 
reexamine whether or not it does have that necessary mandate 
for a coordinated implementation strategy.
    Mr. Boustany. Thank you. And that gets sort of to the next 
issue I wanted to bring up. I mentioned the complexity of the 
ecosystem. But equally complex, and perhaps even more complex 
is the coordination, as you mentioned, of multiple States, 
local governments, various agencies. When I think of my home 
State of Louisiana, it seems fairly simple in how we coordinate 
our efforts with regard to our coastline in comparison to what 
you all are trying to accomplish. So it is truly a monumental 
effort.
    Mr. Grumbles, from the Federal standpoint, do you feel that 
you have adequate coordination right now amongst the Federal 
agencies?
    Mr. Grumbles. I think we have the mechanisms in place. We 
can always, always do a better job in coordination, recognizing 
the opportunities that are close to the surface or staring at 
us right in the face. There is always room for improvement. But 
I do feel that there is a significant amount of leadership. EPA 
and its role with the Chesapeake Bay Program and the 
Administrator being on the Executive Council is important. We 
did just in October have a first of its kind meeting in 
Washington, D.C., where Federal agency heads or their deputies 
gathered among the 17 different agencies to talk specifically 
about implementation, improved coordination and cooperative 
conservation.
    So we need to continue to work at it. I think we have the 
basics for the type of integration and coordination that is 
needed.
    Mr. Boustany. Okay. And one last thing I would like to 
mention, and that is, when you are trying to send funds down to 
the local level, you apparently are certainly dealing with a 
lot of competing requests. How do you prioritize? And who 
should head that effort?
    Ms. Gross. Mr. Chairman, let me take a crack at that from 
the standpoint of something that I do as part of LGAC. That is, 
I get an opportunity, I have been asked to review the Virginia 
grant applications for the watershed grants. What I always look 
for is projects on the ground. An awful lot of the time, the 
money is going to staffing, it is going to more planning, it is 
going to more reporting. And it is not going to the projects on 
the ground where we are actually maybe doing some digging, 
doing some planting, doing the kinds of things that we need to 
do.
    I think that local governments certainly get a little 
frustrated. Yes, we do need funding as far as staffing and so 
forth. But if we are going to have things really show up, you 
get the biggest splash for the cash is planning riparian 
buffers, those kinds of things. So I look at prioritizing 
projects, not planning, necessary, but projects. We have had 
planning up to her.
    Mr. Boustany. Anybody else want to comment on that?
    Mr. Franks. Yes, if you don't mind. I am going to agree 
wholeheartedly. Planning is wonderful, and we have been 
planning for a long time, and it is time to do it. When you 
send money down, I would look for programs that have a clear 
vision of where they want to go and a strategy for getting 
there. And the only thing that is holding them back is the 
dollars.
    We have been talking here today about what steps were we 
moving forward and how it is moving forward in a positive way. 
The legislation that allows us to clean up our sewer treatment 
plants is very, very positive legislation. The initiative in 
the farm community to clean up their areas, not only clean up, 
but reduce their flow of nutrients into the Bay, is absolutely 
essential. We are talking here about a 75 percent to 80 percent 
gain, if it is done everywhere across the board. That is 
tremendous.
    We also have another program in Maryland. That is, we are 
looking, through an EIS, at what do we do when it actually gets 
into the water. Our oyster population is decimated. And we are 
taking a look at a different way of putting another oyster in 
there. We don't know if it is going to be successful. But if 
our EIS is successful, we will begin a large scale oyster 
deployment.
    If it is successful, then we have, we have tried to 
minimize the stuff getting into the water. And now we are going 
to remove it once it gets there. To me, putting your money into 
areas that are effective is the most critical area. Planning is 
good. We have to have some planning. But we really need action.
    Mr. Boustany. Thank you. Ms. Swanson?
    Ms. Swanson. I would like to share a recent observation 
that answers the question. There is a thing called the targeted 
watershed grants, and it is for very large grants, $750,000 to 
$1 million. We recently went through the first round of grant 
selection. I had the pleasure to be on that committee.
    One of the things that this year was done that has never 
been done before on any of these types of grants is we asked 
for a quantification of the pounds of nitrogen, phosphorus and 
sediment that would be reduced based on the proposed project. 
And that ended up being one of the illustrative things in the 
grant that told you what you would get for your investment.
    The other thing that happened is it made the people 
applying think differently. Because instead of thinking about a 
great process or a great plan, they thought about how am I 
going to capture pounds. And for us, in our region, that is 
what matters. I would suggest that kind of quantification 
should be applied nationwide, in Louisiana or Texas or 
wherever, so that if you are trying to get at a goal, make the 
grantees quantify it. And it worked beautifully.
    Mr. Boustany. Mr. Hoagland?
    Mr. Hoagland. Yes, Mr. Chairman, let me add a couple 
additional comments. I do fear that too often we don't make the 
priority choices we have to, because in fact we want to keep 
everybody happy and everybody to have a small piece of this 
Chesapeake Bay Program funding. We go back to the fundamental 
issue of, we now that water quality is the underlying problem 
that we need to solve, so that should be the first criteria. 
The second criteria should be targeting those watersheds where 
it is needed.
    I go back to what you said about knowing the science and 
knowing the problems. We know that from an agricultural basis, 
we have three hot spots: the Shenandoah Valley, it is the 
Lancaster area and it is the Eastern Shore. Those are the three 
hot spots where excess fertilizer, excess manure, must be 
managed, where we need reductions. There is no question that we 
should be investing more dollars there than some other places. 
Those are tough choices. But we have that information to make 
those decisions.
    Mr. Boustany. Thank you.
    Mr. Gilchrest, another round of questions?
    Mr. Gilchrest. Thank you, Mr. Chairman.
    A number of you have talked about priorities. And to use 
Ann's phrase, the political guts to target, and Secretary Ron 
Franks talked about the Corsica River as a priority area and 
selecting priority areas where the dollars can be spent for 
much more substantive, comprehensive restoration projects 
could. I guess anybody on the panel, but Mr. Hoagland, you 
talked about that, and Ms. Swanson and Ron, you have talked 
about it.
    Is this a direction that the Chesapeake Bay Program should 
take, looking at areas that are vulnerable, whether it is the 
Shenandoah Valley or Eastern Shore agriculture? And just say 
for the next five years, this is where most of the money is 
going to go for restoration? Could each of you comment on that?
    Mr. Hoagland. Congressman, I often joke, I have had this 
new position with the Foundation now for slightly over a year. 
But I have been with the Foundation for 16 years. And when I 
got this job, the Foundation had set a goal that by 2010 we are 
going to achieve that 110 million pound reduction goal. And my 
dream is that on December 31st, 2010, I am either smiling or I 
am frowning as to whether or not I have achieved that goal.
    We cannot get to that goal. We cannot get to that goal 
unless we make those decisions that you are raising right now 
and invest in those key areas where we are going to make the 
biggest difference in bringing that nitrogen pollution loading 
down. That is sewage treatment plants, that is agriculture, 
when you get into agriculture that is in those targeted areas. 
There is just no question. We won't get there. We won't restore 
the Bay unless we make those hard choices.
    So I would say yes, we have to be more deliberative, more 
specific and make harder choices in where we are going to use 
the money that we do get in order to get the biggest bang for 
the buck.
    Ms. Gross. But Congressman, I think that we need to also be 
aware of the policy changes that are necessary from the 
standpoint of local governments. If these areas are hot spots, 
there may be policy changes that can be put into place that 
don't cost a lot of money. If you can put the policy changes in 
and uphold those policies, as we are doing, for instance, in 
Fairfax County right now, where we now have the Chesapeake Bay, 
our new Chesapeake Bay ordinance is not allowing people to 
build within 100 feet of a stream, even if it is in their back 
yard.
    And we are taking some heat for that. Because it means you 
can't do certain things or it is going to cost--
    Mr. Gilchrest. Are there court challenges to that?
    Ms. Gross. No, there have been no court challenges to this 
particular one. The State told us we needed to do this, and so 
we are doing it.
    Mr. Gilchrest. Good.
    Ms. Gross. And it is pinching a lot of people, because they 
are not able to build alongside the lake that they wanted to, 
or they are not able to do the kinds of things that they wanted 
to do. They are having to mitigate for all of that.
    So I guess I would say that while targeting hot spots is a 
good idea, be careful about then taking the funding away from 
other places that may need it. Look at the policy changes at 
the local level that may be required that might also get us to 
where we need to be. It is not always throwing money at a 
solution, sometimes it is throwing ideas and policy.
    Mr. Gilchrest. Thank you.
    Mr. Grumbles. Congressman, I just wanted to comment briefly 
that there one of the reasons that the Administration included 
in EPA's budget, the 2007 budget request, the $6 million for 
the Corsica River pilot project is because rather than 
practicing random acts of kindness, there needs to be a 
practice of coordinated acts of conservation. If you look at 
certain areas, the goal is to work in a bipartisan, 
collaborative manner to truly remove from the list of impaired 
waters segments through an integrated, innovative approach. 
That is one good example of a way to make progress. No one 
argues with success, and it can be a good model throughout the 
watershed and throughout the Country.
    But the important point is that while we target resources 
towards particular areas or opportunities, we all have to keep 
in mind what are the key challenges, what are the areas across 
the watershed that really need the most action. And that is 
where your points about the nutrients, the submerged aquatic 
vegetation, the runoff, either agricultural or stormwater in 
urban areas, we need to keep that in mind as we look to provide 
limited amounts of funding and resources to those overarching 
priorities and look for targets of opportunity where we can 
really make a difference and set a good model for others 
throughout the watershed.
    Ms. Swanson. One caution. And I don't mean to walk you into 
complexity. But I would say, I want to know what issue you are 
talking about. And the reason for that is, if you are talking 
about agriculture, and particularly manure, and you have to 
understand that for point sources in the Bay watershed, about 
22 percent of the nitrogen comes from point sources. Manure 
contributes 20 percent or 19 percent.
    And so manure alone is an enormous contributor. That is 
where those three hot spots are. And there is enormous 
opportunity there as a result, because it is very concentrated.
    Now, if it was targeting for point sources, I might not 
say, oh, yes, do the Corsica, and I mean no disrespect, but 
when I start targeting, I want big flows, blue plains. And I 
want it to go the lowest it can possibly go. So there, I would 
target all of your sewage plants larger than 500,000 gallons. 
So I would target differently when it comes to point sources 
than non-point.
    Thank you.
    Mr. Gilchrest. Mr. Franks?
    Mr. Franks. In targeting, you have to be both programmatic 
as well as geographic. You don't have a choice in that. You 
need both aspects of it. I want to talk just for a quick minute 
about the Corsica and about the watershed, just really very 
quickly. We have a lot of things that we believe will be 
effective in reducing pollutants to the Bay. What we tried to 
do in the Corsica was bring all those things together and do 
all of the things in all of the places to see whether or not we 
really know.
    And if we do, after we have done this, and after it has 
been measured, because we are not doing anything without 
measurement, we will be able to say with honesty, yes, we do 
know what needs to be done and we have done it. If we find in 
doing this river system that some things work and some things 
don't, then we have that real experience which we can come back 
and say, we don't need to do these things, but we need to do 
more of this other.
    Now, we picked the Corsica, and I will be perfectly frank 
here, and we are about to look at another watershed. We picked 
the Corsica because of our limitation of money. We did not have 
enormous funds. It is going to cost about $19.4 million to 
restore the Corsica, we believe, to a level which we can be 
able to apply and have it removed from the EPA's impaired 
waters list. That was the money we could cobble together. We 
thought we could cobble together, and with your help, we have 
been able to do that.
    That is one watershed. We are looking at all those BMPs we 
need to do in that watershed. Now we are looking at a second 
watershed. This watershed will probably be a more urban 
watershed, a watershed that has different needs to remove it 
from the list in order to make sure that our BMPs work in a 
more urban environment.
    This is an experiment. It is one we think is well founded. 
We think it will be successful. But it is a learning effort on 
our part. And we feel very, very positive about it, and we feel 
very, very positive about the next one.
    Mr. Gilchrest. Who is involved in that Corsica watershed 
restoration project, Ron?
    Mr. Franks. When you say who is involved?
    Mr. Gilchrest. Other than the Department of Natural 
Resources?
    Mr. Franks. We tried to make it across the board. Most 
everybody is involved, from all the different State agencies to 
the town of Centerville to the county of Queen Anne's, all the 
non-profits. We have tried to make it across the board.
    If everybody is not involved, if everybody doesn't know 
what is going on, if they don't have ownership, it doesn't 
work. We need to bring everybody together. We have differences, 
we discuss them, we work them out and then we move forward. 
When this is over with, we hope we have something that 
everybody will have bought into because they have been part of 
the process.
    Mr. Gilchrest. Great. Mr. Chairman, I have one more 
question, if I might. This question, your comment about the 
Corsica and the integration of various agencies is a question I 
have for Mr. Grumbles. There is, the U.S. Institute for 
Environmental Conflict Resolution, do you see them playing a 
role, or are they playing a role in the Chesapeake Bay Program 
as far as, I would say, is there an entity within the Federal 
Government or Chesapeake Bay Program that coordinates 
activities between NRCS, EPA, Corps of Engineers, NOAA, 
Department of Transportation, where they have, and I see 
Rebecca nodding back there, where they see the watershed in 
various ways as far as their contribution to its restoration or 
their contribution to its degradation and how they can 
coordinate the dollars, the funding, the program, the plans for 
reduction of nitrogen and phosphorus and things like that?
    Mr. Grumbles. Well, I certainly, and I know the agency and 
Rebecca and the Chesapeake Bay Program office, we recognize the 
good work, the important work that the Institute for Conflict 
Resolution has done in the past and continues to do. I am not 
sure that that organization or that particular entity is 
absolutely necessary.
    I feel that we should always keep our eyes open and our 
minds open to collaborators and facilitators on multi-regional 
complexities with conflict resolution. I think we do have a 
good basic structure, and you certainly have the passion and 
the professionalism of the partners in the Chesapeake Bay to 
help make conflict resolution a way of the future. Congressman, 
I hesitate to say that that particular organization is the best 
approach.
    Mr. Gilchrest. Well, if you put that organization aside, is 
there a structure within the Bay program so that these various 
organizations from Agriculture to the Corps of Engineers to 
Transportation to all the other Federal agencies that have some 
impact or input into the Bay's watershed, is there a 
collaborative effort, a structured collaborative effort for 
them to work toward the same goal?
    Mr. Grumbles. Former Administrator Mike Leavitt used to 
say, when looking at regional collaborations and the 
challenges, that oftentimes the problem is not technology but 
sociology. That getting everybody together in a way to sort 
through the different perspectives and pursue common ground or 
if not common ground, middle ground. I feel just as an EPA 
official that we have the partnership, the Chesapeake Bay 
Program, the historic agreement, the Chesapeake Executive 
Council. We have the overall structure to do that.
    To me, one of the best examples of the framework actually 
working was the end of 2004, when EPA and our partners were 
able to agree to a multi-State watershed based permitting 
strategy that stretches all the way up to New York and includes 
other States in the watershed. That wasn't done through a 
formal conflict resolution process. It was done using the 
existing framework we have and spending a lot of time person to 
person working out differences and different perspectives, 
geographic as well as policy.
    Mr. Gilchrest. Thank you. I want to compliment all of you. 
We all are engaged in a lot of different activities. These are, 
I guess when you have, I don't want to say 16 million 
overweight people out there, but it might be a million, your 
efforts are well appreciated. I want to thank you for taking 
this time out of your life. For some of you it is decades, for 
some of you it is a little bit shorter, to accomplish these 
worthy goals.
    But I would also like to continue to collaborate with you 
on this process, as we bring the legislation through to fine 
tune it with your recommendations even further. I guess if I 
could leave any message to each of you, as I see it from my 
perspective, traveling around Maryland, the watershed, is if we 
can develop a system to disseminate this information to a 
larger group of people in an organized fashion. Talk about the 
bang for the buck that we get from that. I think that would be 
a real positive thing.
    Thank you all very, very much, and thank you, Mr. Chairman.
    Mr. Boustany. Thank you, Mr. Gilchrest.
    I would like to recognize Ms. Norton, who joined us a few 
moments ago, and see if you have any questions.
    Ms. Norton. This is a matter of such great importance 
across five or six States, and I am very pleased to welcome all 
of you here. I am very pleased at the regional effort and 
understanding of the importance of the Bay and of the various 
programs. I must say that when I read and of course, the Bay is 
covered very substantially in our newspapers, about problems 
with rockfish and other problems. One wonders about our 
progress. Of course, this is nature, things will happen from 
time to time.
    The report card notion that Mr. Gilchrest has led, the way 
in which local governments have taken responsibility is 
admirable. I cannot say that I have a sense of the overall 
health of the Bay, as difficult as that is. In the Anacostia, 
this Committee, and this is the real stepchild here, and of 
course all this water flows you know where ultimately. But this 
Committee, and I think Congress has approved a part of a plan 
for the Anacostia that says that the Corps of Engineers is to 
get the jurisdictions involved, there are three jurisdictions 
involved, to develop a 10 year plan for the Anacostia. This is 
one river.
    But this is a part of a bill that I sponsored. What was 
important to me was that everybody was working on the Anacostia 
while it was still a very polluted river. We know what needs to 
be done. It has a huge problem from stormwater overflow. We 
know it has to be done.
    But the whole notion of these periodic meetings where 
everyone pledges and signs on to support cleanup didn't seem to 
me to tell me anything in the long run. I am sure they did it, 
and I am sure that of the commitment. What my bill did was to 
put responsibility some place. Now, again, we are talking about 
the Bay, which is a much more complicated matter.
    But what it did was, we said, look, Corps of Engineers, you 
get these jurisdictions together, you make them agree, you have 
them agree on a plan. So in the end, the kind of collaboration 
that it takes to clean up any body of water has got to occur, 
because everybody has to agree to the plan. And there is 
somebody in charge of getting the plan together.
    Now, the Corps of Engineers is not going to do the plan. 
The Corps of Engineers can't make individual jurisdictions do 
anything. But at least we have placed responsibility somewhere, 
other than in the jurisdictions involved to integrate and to 
come forward with a coherent plan.
    I would simply like to ask if anything of the kind exists 
with respect to the Chesapeake Bay or whether it would be 
useful at all.
    Mr. Grumbles. Congresswoman, the first thing I wanted to do 
in response to your question was to say EPA appreciates and 
acknowledges your leadership on the Anacostia River. I remember 
us working with Ken and other members of the Staff on the 
Subcommittee many years ago, where you had a field hearing to 
specifically draw national attention to the urban stormwater 
challenge in the Anacostia. EPA wants to be a full partner in 
that effort. We are taking important steps. Because it is a 
very polluted but important asset in this whole region. It is 
also connected to the Chesapeake Bay.
    We do have a tributary strategy. For the Chesapeake Bay, 
your question, there is a framework. There are action plans. 
And they are translated into tributary strategies. There are 36 
tributary strategies, and they essentially encompass watershed 
plans for what brings the lifeblood into the Chesapeake Bay.
    Ms. Norton. Do you integrate all those together so that you 
know, does the EPA do that?
    Mr. Grumbles. Well, the Chesapeake Bay program office, 
which EPA does integrate, does look at them. Of course, as you 
know, the key to the success and sustainability of each of 
those 36 tributary strategies is based on the local and State 
level and citizen level partnership in putting those together. 
But yes, we do have an important role in that overall effort. 
All the Bay partners have agreed years ago that the tributary 
strategies are part of the salvation, the way to really make on 
the ground, in the watershed progress toward the Chesapeake 
Bay.
    Mr. Hoagland. Congresswoman, I would answer the question a 
little differently. I would say no, there is no one with 
ultimate responsibility under this cooperative partnership. And 
in fact, I think there is a need, and the Foundation has argued 
for a greater involvement by the Federal Government.
    We do have a resource that is multi-jurisdictional. It is 
one of national significance. There is a key role that needs to 
be played at a greater leadership level from the Federal 
Government, not unlike the one that you described that you had 
to address with the Anacostia.
    Ms. Norton. Does anyone else have a view on that matter?
    Mr. Franks. When you look at a watershed, and you ask, have 
you considered all the different parts to it, that is what we 
did with the Corsica. The Anacostia is more of an urban 
watershed, and a much larger watershed. We took a small 
watershed because that is what we thought we may be able to 
arrive to acquire the funding to do all of the things in all of 
the places all of the time to make it a working project.
    So we have looked at a watershed-wide plan. The Anacostia 
is a much more complex and much, much, much more costly 
undertaking.
    Ms. Swanson. I would like to respond. When I think about 
the Chesapeake Bay Program, the leadership in the Chesapeake 
Bay Program I would describe as a Rubik's cube, where there are 
certain leaders who know they are a part of the cube. But 
essentially as issues change, geographic priorities change, 
dollars available or even political will, when the right 
opportunities align, different leaders emerge, the same way 
different pieces on the cube lead you to putting it together.
    So I would say that the strength of the Bay Program is 
multiple leaders. But I would also say that for some of the 
other Federal agencies, all the Federal agencies in the Bay 
watershed, the more they get clear direction from you as to the 
priorities in the Bay watershed and their activities, the more 
they will be a very prominent piece on that Rubik's cube.
    And make no mistake, the Federal agencies' involvement is 
vital and pivotal and keeps all of us as States and general 
assemblies together. But I would say, you need to amplify that 
leadership among many of the Federal agencies.
    Ms. Gross. From a local, local government perspective, we 
wonder sometimes about the coordination. But when you look at 
an org chart, you can sort of see where some of that goes.
    I would also say, though, that it is important that local 
governments be fully participatory in the effort. You 
mentioned, Congresswoman, the Anacostia River. In my prepared 
remarks, I do mention the restoration of the Anacostia as an 
example for maybe prioritizing grants within watersheds or 
metropolitan areas. Because that is a very important one for 
those of us in this particular region.
    However, sometimes the participation of even our larger 
governments within the metropolitan region is not what it 
should be. I am very pleased to see especially at the District 
of Columbia Government level, that there is a new environmental 
department, a department of the environment being put together, 
which is going to help coordinate their efforts.
    Because quite frankly, it has been a little frustrating 
sometimes that the level of participation in the region, and I 
am not speaking for the complete watershed right now, we can 
get into that another time. But for just the metropolitan 
region, it has been spotty in some regards. So trying to be 
cohesive at the local level, and then I don't know whether it 
should flow downhill from the Feds or try to go up here.
    But there needs to be coordination at all the levels. If we 
can coordinate regionally or locally among ourselves while the 
Federal and State governments try and figure out what to do, we 
shouldn't just not do that until somebody else above us gets 
their act together.
    Ms. Norton. It is interesting to hear your responses. I 
think the Bay is one of the seven wonders of the United States. 
There is just nothing else like it. And of course, its 
complexity is awesome as well, and in many jurisdictions.
    This is a Federal republic. And when you have independent 
local jurisdictions involved, you have a major issue about 
how--every jurisdiction is supposed to deal with their own 
thing. And that is the way the Federal republic is organized. 
We would not want it any differently. I am not one for easy 
analogies. But I do want to suggest that in this region, we 
have had great difficulty despite enormous regional cooperation 
on things that the region cannot do without. I give Metro as 
perhaps the preeminent example. You take that away and the 
whole region falls apart.
    Of course right now, in one of my other committees, I am 
co-sponsor of a bill where we are trying to get each part of 
the region to sign on to a dedicated annual payment for Metro, 
because here is this wonderful thing that the Federal 
Government disproportionately contributes to, and it is, and 
people love it now. They are loving it to death, they are 
getting on. And we have hung out this kind of, let's call it an 
incentive. We have not yet gotten everybody to take to it. But 
we sit together a lot. We sit together a lot.
    There is, I spoke about the Anacostia River analogy, 
because you can, I think, see that the word coordinator is all 
we are talking about. The Federal Government is empowered here. 
It is not a new structure. It is not some new office in the 
Corps. But it is responsibility, so that Congress can have a 
hearing for our bill and say to the Corps, all right, what have 
you done.
    To give you another analogy, again, analogies are the way 
in which lawyers operate. But their opponents operate in 
tearing apart their analogies. So I offer them simply for what 
they are worth.
    But when the Homeland Security bill came through here, I 
sat on one of my committees and recognized how central this 
region was with the entire Federal presence located here. I 
sponsored an amendment that ultimately the whole region 
sponsored and we got through for a coordinator for this region. 
Now, that could have been somebody who had some other role in 
the Department of Homeland Security. But the fact is that 
Congress said we would pay for a coordinator. So that person 
sits with the counties that are involved, Fairfax, Montgomery, 
out to some distance, D.C., and coordinates security, including 
grants.
    Now, he doesn't say you get one, you get one. But somehow 
it is interesting how they have developed a way of prioritizing 
security concerns within this region. I have to tell you, I 
would be the first to hear it, I will be through in a minute, 
and thank you, Mr. Chairman, particularly since I am on the 
Homeland Security Committee, there have not developed issues. 
If anything, we are on the coordinator, because they have not 
come up with the final plan we want.
    So my only point is, I am not sure anyone is going to be 
able to tell us much about the Bay, the Bay that we love so 
much until somehow somebody who looks at the whole Bay is able 
to report. We do have a Federal Government and it is of course 
the overarching Government, and it does seem to me that the 
Federal Government has a role to play here. And we have to 
think through what that role should be.
    But I am convinced just by talking with you and seeing that 
everybody is trying their darndest and still we have major 
questions out there. I do want to say this, I think that 
without that kind of coordination, when you hear about 
rockfish, we run to the rockfish issue. When you hear about 
whatever is the issue that makes the newspaper, that may become 
your priority. I wonder if that is the way to really take care 
of an extraordinary resource like the Chesapeake Bay.
    I thank you for your indulgence, Mr. Chairman.
    Mr. Ehlers. [Presiding.] The gentlewoman's time has 
expired.
    I do apologize for arriving so late for this hearing. I was 
chairing my own subcommittee, also on the topic of water, or 
lack thereof, about developing a drought information system for 
this Nation, a rather dry subject, I must say. But we had a 
very good hearing and reported a bill out creating a national 
system of identifying and sharing data on the drought system. 
So I am inundated with water issues today.
    I don't want to take your time, and I don't have questions, 
because I missed most of the testimony. But I do appreciate 
your being here.
    What I do want to observe is that we have done two major 
things in the Congress in the past 15, 20 years. First is the 
Chesapeake Bay project. Second, the Everglades. We also had a 
small one on the Salton Sea.
    But now the next big one is looming, and it is far bigger 
than these, and that is one I am involved in. I agree with 
everything Ms. Norton said about the problems of the Chesapeake 
Bay, the coordination, the need for it, how large the problem 
is. You multiply that probably 30-fold, and you get to the 
Great Lakes, which is the issue I am concerned about.
    I am very pleased not only that we got my Legacy Act passed 
a few years ago, but that Mr. Grumbles and the EPA have been 
very supportive in recommending funding. The President has been 
even more supportive in granting the funding, and we have made 
substantial progress. But I have introduced a major bill which 
I hope we can get passed soon, which will do for the Great 
Lakes the same thing that is going on for Chesapeake Bay and 
the Everglades. And it is absolutely essential to do that, and 
I know, since water and water creatures are dear to all your 
hearts, that you will support that effort as well.
    With that, I want to thank you for your presence here. Your 
testimony has been very valuable to this Committee as we 
continue to consider the reauthorization. And I certainly 
appreciate your taking the time to come here and benefiting us 
with your knowledge. Of course, Mr. Grumbles has shared his 
knowledge with us for years. We still haven't begun to in any 
way plumb the depths of his intellect and his knowledge on this 
topic.
    But we appreciate all of you coming here and sharing your 
information with us. It is the only way the Congress can 
operate, is through your help. So thank you for being here.
    With that, I am pleased to bring the hearing to a 
conclusion. The hearing is adjourned.
    [Whereupon, at 12:10 p.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8284.001
    
    [GRAPHIC] [TIFF OMITTED] T8284.002
    
    [GRAPHIC] [TIFF OMITTED] T8284.003
    
    [GRAPHIC] [TIFF OMITTED] T8284.004
    
    [GRAPHIC] [TIFF OMITTED] T8284.005
    
    [GRAPHIC] [TIFF OMITTED] T8284.006
    
    [GRAPHIC] [TIFF OMITTED] T8284.007
    
    [GRAPHIC] [TIFF OMITTED] T8284.008
    
    [GRAPHIC] [TIFF OMITTED] T8284.009
    
    [GRAPHIC] [TIFF OMITTED] T8284.010
    
    [GRAPHIC] [TIFF OMITTED] T8284.011
    
    [GRAPHIC] [TIFF OMITTED] T8284.012
    
    [GRAPHIC] [TIFF OMITTED] T8284.013
    
    [GRAPHIC] [TIFF OMITTED] T8284.014
    
    [GRAPHIC] [TIFF OMITTED] T8284.015
    
    [GRAPHIC] [TIFF OMITTED] T8284.016
    
    [GRAPHIC] [TIFF OMITTED] T8284.017
    
    [GRAPHIC] [TIFF OMITTED] T8284.018
    
    [GRAPHIC] [TIFF OMITTED] T8284.019
    
    [GRAPHIC] [TIFF OMITTED] T8284.020
    
    [GRAPHIC] [TIFF OMITTED] T8284.021
    
    [GRAPHIC] [TIFF OMITTED] T8284.022
    
    [GRAPHIC] [TIFF OMITTED] T8284.023
    
    [GRAPHIC] [TIFF OMITTED] T8284.024
    
    [GRAPHIC] [TIFF OMITTED] T8284.025
    
    [GRAPHIC] [TIFF OMITTED] T8284.026
    
    [GRAPHIC] [TIFF OMITTED] T8284.027
    
    [GRAPHIC] [TIFF OMITTED] T8284.028
    
    [GRAPHIC] [TIFF OMITTED] T8284.029
    
    [GRAPHIC] [TIFF OMITTED] T8284.030
    
    [GRAPHIC] [TIFF OMITTED] T8284.031
    
    [GRAPHIC] [TIFF OMITTED] T8284.032
    
    [GRAPHIC] [TIFF OMITTED] T8284.033
    
    [GRAPHIC] [TIFF OMITTED] T8284.034
    
    [GRAPHIC] [TIFF OMITTED] T8284.035
    
    [GRAPHIC] [TIFF OMITTED] T8284.036
    
    [GRAPHIC] [TIFF OMITTED] T8284.037
    
    [GRAPHIC] [TIFF OMITTED] T8284.038
    
    [GRAPHIC] [TIFF OMITTED] T8284.039
    
    [GRAPHIC] [TIFF OMITTED] T8284.040
    
    [GRAPHIC] [TIFF OMITTED] T8284.041
    
    [GRAPHIC] [TIFF OMITTED] T8284.042
    
    [GRAPHIC] [TIFF OMITTED] T8284.043
    
    [GRAPHIC] [TIFF OMITTED] T8284.044
    
    [GRAPHIC] [TIFF OMITTED] T8284.045
    
    [GRAPHIC] [TIFF OMITTED] T8284.046
    
    [GRAPHIC] [TIFF OMITTED] T8284.047
    
    [GRAPHIC] [TIFF OMITTED] T8284.048
    
    [GRAPHIC] [TIFF OMITTED] T8284.049
    
    [GRAPHIC] [TIFF OMITTED] T8284.050
    
    [GRAPHIC] [TIFF OMITTED] T8284.051
    
    [GRAPHIC] [TIFF OMITTED] T8284.052
    
    [GRAPHIC] [TIFF OMITTED] T8284.053
    
    [GRAPHIC] [TIFF OMITTED] T8284.054
    
    [GRAPHIC] [TIFF OMITTED] T8284.055
    
                                    

</pre></body></html>
